<html>
<title> - FY 2003 BUREAU OF LAND MANAGEMENT AND FOREST SERVICE ENERGY AND MINERAL PROGRAM BUDGET</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
   FY 2003 BUREAU OF LAND MANAGEMENT AND FOREST SERVICE ENERGY AND 
                        MINERAL PROGRAM BUDGET
=======================================================================

                           OVERSIGHT HEARING

                               before the

                       SUBCOMMITTEE ON ENERGY AND
                           MINERAL RESOURCES

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION
                               __________

                           February 14, 2002

                               __________
                           Serial No. 107-85

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov






                       U. S. GOVERNMENT PRINTING OFFICE
77-680                          WASHINGTON : 2002
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001









                         COMMITTEE ON RESOURCES

                    JAMES V. HANSEN, Utah, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska,                   George Miller, California
  Vice Chairman                      Edward J. Markey, Massachusetts
W.J. ``Billy'' Tauzin, Louisiana     Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Peter A. DeFazio, Oregon
Elton Gallegly, California           Eni F.H. Faleomavaega, American 
John J. Duncan, Jr., Tennessee           Samoa
Joel Hefley, Colorado                Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Scott McInnis, Colorado              Calvin M. Dooley, California
Richard W. Pombo, California         Robert A. Underwood, Guam
Barbara Cubin, Wyoming               Adam Smith, Washington
George Radanovich, California        Donna M. Christensen, Virgin 
Walter B. Jones, Jr., North              Islands
    Carolina                         Ron Kind, Wisconsin
Mac Thornberry, Texas                Jay Inslee, Washington
Chris Cannon, Utah                   Grace F. Napolitano, California
John E. Peterson, Pennsylvania       Tom Udall, New Mexico
Bob Schaffer, Colorado               Mark Udall, Colorado
Jim Gibbons, Nevada                  Rush D. Holt, New Jersey
Mark E. Souder, Indiana              James P. McGovern, Massachusetts
Greg Walden, Oregon                  Anibal Acevedo-Vila, Puerto Rico
Michael K. Simpson, Idaho            Hilda L. Solis, California
Thomas G. Tancredo, Colorado         Brad Carson, Oklahoma
J.D. Hayworth, Arizona               Betty McCollum, Minnesota
C.L. ``Butch'' Otter, Idaho
Tom Osborne, Nebraska
Jeff Flake, Arizona
Dennis R. Rehberg, Montana

                      Tim Stewart, Chief of Staff
           Lisa Pittman, Chief Counsel/Deputy Chief of Staff
                Steven T. Petersen, Deputy Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                

              SUBCOMMITTEE ON ENERGY AND MINERAL RESOURCES

                    BARBARA CUBIN, Wyoming, Chairman
              RON KIND, Wisconsin, Ranking Democrat Member

W.J. ``Billy'' Tauzin, Louisiana     Nick J. Rahall II, West Virginia
Mac Thornberry, Texas                Edward J. Markey, Massachusetts
Chris Cannon, Utah                   Solomon P. Ortiz, Texas
Jim Gibbons, Nevada,                 Calvin M. Dooley, California
  Vice Chairman                      Jay Inslee, Washington
Thomas G. Tancredo, Colorado         Grace F. Napolitano, California
C.L. ``Butch'' Otter, Idaho          Brad Carson, Oklahoma
Jeff Flake, Arizona
Dennis R. Rehberg, Montana
                                 ------                                















                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on February 14, 2002................................     1

Statement of Members:
    Cubin, Hon. Barbara, a Representative in Congress from the 
      State of Wyoming, Prepared statement of....................     2
    Gibbons, Hon. Jim, a Representative in Congress from the 
      State of Nevada............................................     1
    Kind, Hon. Ron, a Representative in Congress from the State 
      of Wisconsin...............................................     3
        Prepared statement of....................................     5

Statement of Witnesses:
    Clarke, Kathleen, Director, Bureau of Land Management, U.S. 
      Department of the Interior.................................     7
        Prepared statement of....................................     9
        Response to questions submitted for the record...........    26
    Thompson, Tom, Deputy Chief, Forest Service, U.S. Department 
      of Agriculture.............................................    12
        Prepared statement of....................................    14
        Response to questions submitted for the record...........    43















 OVERSIGHT HEARING ON ``FISCAL YEAR 2003 BUREAU OF LAND MANAGEMENT AND 
           FOREST SERVICE ENERGY AND MINERAL PROGRAM BUDGET''

                              ----------                              


                      Thursday, February 14, 2002

                     U.S. House of Representatives

              Subcommittee on Energy and Mineral Resources

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to notice, at 10:06 a.m., in 
room 1310, Longworth House Office Building, Hon. Jim Gibbons 
[Vice Chairman of the Subcommittee] presiding.

  STATEMENT OF HON. JIM GIBBONS, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF NEVADA

    Mr. Gibbons. [Presiding] The Subcommittee on Energy and 
Mineral Resources will come together.
    First of all, let me explain that we have just been 
notified we do have a vote. My intentions are to give the 
Chairman's and Ranking Member's opening statement and then 
allow for Mr. Hansen to introduce Ms. Kathleen Clarke from the 
Bureau of Land Management.
    Mrs. Cubin is unable to be with us this morning because of 
a family health emergency, and she has asked me, as the Vice 
Chairman, to chair this Committee.
    The Subcommittee meets today for our first hearing of the 
second session of the 107th Congress. Our topic is the review 
of the proposed energy and minerals program budget for the 
coming fiscal year for the two largest public land management 
agencies in the Federal Government, the Bureau of Land 
Management of the Department of Interior and the Forest Service 
of the Department of Agriculture.
    Besides managing surface resources, the BLM administers the 
Federal mineral estate beneath the public lands, including 
national forests, and under private lands where the United 
States has reserved a mineral right in the patent, such as the 
Stockraising Homestead Act. This is a big job, no doubt about 
it, and requires strong leadership at the helm to ensure that 
public resources are utilized in a manner consistent with 
public trust and our Nation's economic energy security.
    The Subcommittee is fortunate to have the new Director of 
the BLM with us here today, giving what I believe will be her 
first testimony before a House of Representatives panel. Ms. 
Kathleen Clarke, who was confirmed by our colleagues in the 
other body a little less than 2 months ago, I believe, brings a 
strong background to this job as the former director of the 
Utah Department of Natural Resources and, of course, including 
staff assignments with our Full Committee Chairman, Mr. Jim 
Hansen, and Senator Robert F. Bennett of Utah, as well. In a 
minute, I will ask Mr. Hansen to formally introduce Ms. Clarke 
to the members of the Subcommittee.
    President Bush has established a national energy policy, 
which includes a significant role for public lands and 
minerals. Together with Secretary Norton and her team at the 
Interior, Director Clarke's leadership will be tested as she 
seeks to steer the Agency in a new direction from that of her 
predecessors, but a change is necessary, and I trust Mrs. 
Clarke is able to implement that policy.
    I believe the Fiscal Year 2003 budget of the President 
largely reflects these needs with respect to both the BLM and 
the Forest Service programs within our jurisdiction. The 
President has seen fit to increase the budgets for both 
renewable and nonrenewable energy programs on our public lands, 
including geothermal energy, an important component of energy 
in the State of Nevada.
    We also have with us today Mr. Tom Thompson, Deputy Chief 
of the Forest Service. I want to welcome him here today, and he 
is here to testify about the minerals and geology program 
budget of his agency. The Forest Service technically does not 
``administer'' the minerals beneath our feet, save for the so-
called mineral materials, such as sand, gravel and stone. But 
this Agency is very much involved in the permitting process and 
access to Federally owned mineral resources within our national 
forests and grasslands.
    Also, the Forest Service, by a Memorandum of Understanding 
with the BLM, does perform mining claim examination and 
otherwise manages the miners' access to hard-rock minerals 
beneath the national forests. As such, we should carefully 
review the programmatic budget of the Forest Service which will 
allow officials in our hinterlands to meet the important 
national energy policy goals outlined by the President and 
Congress.
    In conclusion, let me say that perhaps even more important 
than money in the budget, is knowing that folks running the 
agencies are committed to seeing President Bush's plans and 
ideas put into action.
    The Subcommittee looks forward to working with both 
Director Clark and Deputy Chief Thompson over the coming year 
to implement efforts to increase both renewable and 
nonrenewable forms of energy to find creative solutions for 
restoring the health of our domestic mining industry operating 
on the public lands of the West.
    With that, let me turn to my Ranking Member, Mr. Kind, for 
any opening remarks that he may have at this time.
    [The prepared statement of Mrs. Cubin follows:]

  Statement of The Honorable Barbara Cubin, Chairman, Subcommittee on 
                      Energy and Mineral Resources

    The Subcommittee meets today for our first hearing of the second 
session of the 107th Congress. Our topic is the review of the proposed 
energy & minerals program budgets for the coming fiscal year for the 
two largest public land management agencies in the Federal Government--
- the Bureau of Land Management of the Interior Department, and the 
Forest Service of the Department of Agriculture.
    Besides managing surface resources, the BLM administers the Federal 
mineral estate beneath the public lands, including National Forests, 
and under private lands where the United States has reserved minerals 
in the patent, such as the Stockraising Homestead Act. This is a big 
job, no doubt about it, and requires strong leadership at the helm to 
ensure the public's resources are utilized in a manner consistent with 
public trust and our Nation's economic and energy security.
    As such, I am pleased to have the new Director of the BLM here with 
us today, her first such testimony before a House of Representatives 
panel. Ms. Kathleen Clarke was confirmed by our colleagues in the other 
body at the very end of the first session, and has been in office only 
six weeks or so. But, Ms. Clarke brings a strong background to this 
job, as the former director of the Utah Department of Natural 
Resources, and staff assignments with our full committee chairman, Jim 
Hansen and Senator Robert F. Bennett of Utah as well. Secretary Gale 
Norton will finally have her complete team together--and none too 
soon--because President Bush has established a national energy policy 
which includes a significant role for public lands and minerals. And, 
because if lightning strikes the leadership of other body and they 
bring up and finish a comprehensive energy bill, we will be 
conferencing legislative provisions in H.R. 4, the Save America's 
Future Energy Act of 2001, which emanated from this subcommittee's 
oversight last year and in previous Congresses. Ms. Clarke's leadership 
at the BLM will be critical toward achieving component goals of a 
sustainable national energy policy.
    I believe the Fiscal Year 2003 budget of the President largely 
reflects these needs with respect to both the BLM and Forest Service 
programs within our jurisdiction.
    We also have with us today Mr. Tom Thompson, Deputy Chief of the 
Forest Service, to testify about the minerals and geology program 
budget of his agency. The Forest Service technically does not 
``administer'' the minerals beneath their feet (save for the so-called 
mineral materials such as sand, gravel and stone), but this agency is 
very much involved in the permitting access to the Federally owned 
mineral resources within our national forests and grasslands. As such, 
we should carefully review the programmatic budget of the Forest 
Service which will allow officials out in the hinterlands to meet 
important national energy policy goals outlined by the President and 
Congress.
    Even more important than the money in the budget for such 
activities, however, is knowing that the folks running these agencies 
are committed to seeing President Bush's plans and ideas into action. I 
look forward to working with both Director Clarke and Deputy Chief 
Thompson over the coming year in seeing through the necessary 
implementation efforts for both renewable and nonrenewable forms of 
energy. Our country will be stronger for it. To quote President Bush, 
``Let's roll.''
                                 ______
                                 

 STATEMENT OF HON. RON KIND, A REPRESENTATIVE IN CONGRESS FROM 
                     THE STATE OF WISCONSIN

    Mr. Kind. Thank you, Mr. Chairman. I want to thank the 
witnesses for anticipated testimony and your presence here 
today. I think there is going to be a journal vote so we are 
going to be running off here in a few minutes to get over 
there.
    I appreciate the opportunity of being able to have this 
hearing, looking into the budgets for the BLM and the Forest 
Service. These are very important budgets. Obviously, it is in 
the context of a national energy policy that we are trying to 
adopt right now in Congress. But as we meet today to hear 
testimony from the administration on the 2003 budget request 
for energy and minerals of the BLM and the Forest Service, it 
is important that we first step back from our narrow 
Subcommittee focus to look at the President's budget from a 
broader perspective.
    We need to bear in mind that as we view these important 
budgets, the two before us today, part of his 2003 proposal, 
President Bush is proposing billions of dollars in taxpayer 
subsidies to energy companies, also, various policy initiatives 
that may threaten environmental safeguards in public lands and 
public health for reducing environmental and enforcement funds 
and weakening the Nation's energy security through 
overreliance, I believe, on the development and exploration and 
production of more fossil fuels in the 21st century.
    As noted by the Natural Resources Defense Council, the 2003 
budget would slash overall spending for the Environmental and 
Natural Resources Department by a billion dollars or 3.4 
percent in the next fiscal year alone, from $29 billion to, 
roughly, $28 billion.
    When we review the BLM budget, we see that the President's 
2003 budget assumes that Congress will authorize a lease sale 
in the Arctic National Wildlife Refuge. Now, given the debate 
that is existing in the Senate and the lack of bipartisan 
consensus on the issue and really a lack of public support for 
that, that appears to me to be a very big assumption to be 
making in the next fiscal year budget outlook.
    Furthermore, even some in the oil and gas industry appear 
to be less than enthusiastic now, given market prices, at the 
prospect of paying huge sums of money to drill for oil in a 
frontier such as the Arctic National Wildlife Refuge.
    For example, one of the big players in Alaska, British 
Petroleum Corporation, has scaled back its Alaska operations, 
instead, opting to focus its efforts on the reserves that exist 
right now and the current leases in the Gulf of Mexico. In 
fact, just last Sunday, BP's CEO stated on the CBS news program 
``60 Minutes'' that there is certainly more oil in the deep 
waters of the Gulf of Mexico than exists in Alaska, according 
to their opinion. Given the advent of technology and the 
advancement in that area, he feels that it perhaps is even more 
economically feasible and more efficient to be drilling in that 
area, rather than opening up the Wildlife Refuge in Alaska.
    Clearly, something must be done to cut America's reliance 
on foreign oil. The events of September 11th have intensified 
that belief. I think perhaps the greatest single foreign policy 
failure in the last quarter century is our inability as a 
country to wean ourselves from our dependence on fossil fuel 
and the importation of oil from very volatile regions.
    However, even those who support increased domestic and oil 
gas production agree that development of alternative energy, 
such as geothermal, wind, solar, as well as other actions, must 
be a significant part of our national energy policy. Yet, as 
the BLM and Forest Service energy proposals illustrate, the 
Bush budget for 2003 fails to adopt that approach. Instead, it 
continues a dangerous and misguided reliance on the fossil 
fuels. For example, the BLM budget proposes doubling its 
geothermal budget, which may sound good, but it just goes from 
$250,000 to $700,000 per year. It is a good start in the right 
direction, I believe, but it is a paltry sum when compared to 
the BLM's oil and gas program, which would be increased by over 
$85 million.
    In addition, the Forest Service proposes a $3.5-million 
boost just to increase the number of oil and gas lease 
operations in our national forests by roughly 1,000.
    In sum, the President has proposed increases in these two 
areas to support his national energy policy, but that policy, 
and therefore these budgets, rely, again, much too heavily on 
the development and the production of fossil fuels in this 
country. Investing in cleaner domestic sources of energy from 
renewable and alternative energy sources, increased energy 
efficiency, for instance, would provide greater national 
security than our overreliance in these areas.
    I, again, thank the witnesses for your presence. I thank 
Mr. Gibbons for pinch-hitting for Ms. Cubin today, and we look 
forward to the hearing.
    [The prepared statement of Mr. Kind follows:]

Statement of The Honorable Ron Kind, Ranking Democrat, Subcommittee on 
                <plus-minus>Energy and Mineral Resources

    As we meet today to hear testimony from the Administration on the 
Fiscal Year 2003 budget requests for the energy and minerals programs 
of the BLM and the Forest Service, it is important that we first step 
back from our more narrow Subcommittee focus to look at the President's 
budget from a broader perspective.
    We need to bear in mind as we review these two budgets that as part 
of his Fiscal Year 2003 proposal, President Bush is proposing billions 
of dollars in taxpayer subsidies to energy companies, threatening the 
environment and public health by reducing environmental enforcement 
funds, and weakening the nation's energy security through over reliance 
on fossil fuels.
    As noted by the Natural Resources Defense Council (NRDC Environment 
Watch: The Bush Record), the Fiscal Year 2003 budget would slash 
overall spending for environmental and natural resources departments by 
$1 billion, or 3.4 percent, in Fiscal Year 2003--from $29.3 billion to 
$28.3 billion.
    When we review the BLM budget, we see that the President's 2003 
budget assumes that Congress will authorize a lease sale in the Arctic 
National Wildlife Refuge
    At a time when there is little public support and no consensus in 
the other legislative body for opening ANWR to oil and gas development, 
this assumption makes no sense.
    Further, even some in the oil and gas industry appear to be less 
than enthusiastic at the prospect of paying huge sums of money to drill 
for oil in frontier areas such as ANWR. For example, one of the big 
players in Alaska, the British Petroleum corporation, has scaled back 
its Alaska operations instead opting to focus its efforts in the Gulf 
of Mexico.
    Just last Sunday, BP's CEO stated on the CBS news program, ``60 
Minutes,'' that there is certainly more oil in the deepwaters of the 
Gulf of Mexico than in Alaska.
    Why then focus on drilling in America's last great wilderness when 
there are much larger reserves elsewhere?
    Clearly, something must be done to cut America's reliance on 
foreign oil. The events of September 11 have intensified that belief.
    However, even those who support increased domestic oil and gas 
production agree that development of alternative energies, such as 
geothermal, wind and solar, as well as other actions, must be a 
significant part of a national energy policy.
    Yet, as the BLM and Forest Service energy proposals illustrate, the 
Bush budget for Fiscal Year 2003 fails to adopt that approach.
    Instead, it continues a dangerous and misguided over reliance on 
fossil fuels. For example, the BLM budget proposes doubling its 
geothermal budget ``going from $350,000 to $700,000 per year. A good 
start but a paltry sum when compared to the BLM's oil and gas program, 
which would be increased to $85 million.
    In addition, the Forest Service proposes a $3.5 million boost just 
to increase the number of oil and gas lease operations in National 
Forests by 1000.
    In sum, the President has proposed increases in these two areas to 
support his national energy policy. But, that policy, and therefore, 
these budgets, rely too heavily on fossil fuels. Investing in cleaner, 
domestic sources of energy from renewable resources and energy 
efficiency would provide greater national security than over reliance 
on oil and gas.
                                 ______
                                 
    Mr. Gibbons. Thank you, Mr. Kind.
    While I know we have just but a few minutes before we run 
out of here, I would like to turn to Mr. Hansen of Utah to 
introduce Kathleen Clarke before we do break for a vote.
    Mr. Hansen?
    Mr. Hansen. I thank you, Mr. Chairman.
    Let me thank the witnesses for being here. It is always a 
pleasure to have Mr. Thompson of the Forest Service, and we 
have a new person from BLM, Kathleen Clarke, who is with us.
    I know Kathleen very well because she worked for me for a 
while. She has a tremendous background. Did you go to the ``Y'' 
or the ``U''? I can't recall what it was. I was hoping it was 
the ``U,'' but it was probably the ``Y,'' but anyway--
    Ms. Clarke. It was Utah State, Congressman.
    Mr. Hansen. Good. I hope so. And a few years in law school, 
and went to work for me in 1980 and did a super job for us. It 
was obvious that her talent was such that she would go to other 
places, and then she went to the State of Utah and worked for 
now-Judge Ted Stewart, who is a Federal judge, and then she 
became the first woman to be the head of the Department of 
Natural Resources in the State of Utah.
    Kathleen is known for having the ability of bringing people 
together and doing a super job with solving tough problems. I 
have seen Kathleen in situations which people were screaming 
and bouncing off the walls, and her unflappable nature was able 
to bring people together.
    So it has been a great pleasure to work with her over the 
years. I was thrilled when she was nominated to be the Director 
of BLM. As I don't know if a lot of our Western people realize 
that, but she has more control than most Governors do in the 
West right now, as there is a lot of acres out there. I don't 
say anything against the Forest Service, as they also seem to 
control it. I know your State and my State, our Governors have 
an infinitesimal part that they control compared to the Forest 
Service and BLM.
    I think it is very fitting for the Bush administration to 
ask Kathleen to serve as Director of BLM. I understand she had 
no problem at all going through the Senate. It is great to see 
them do something for a change and just getting you through 
there was great because this is the do-nothing term for the 
U.S. Senate. So it is a pleasure to--
    [Laughter.]
    Mr. Hansen. I am not kidding. You gentlemen know that. This 
is such a great pleasure for us to--
    Mr. Kind. They did pass finance reform, though, Mr. 
Chairman.
    [Laughter.]
    Mr. Hansen. --to have Kathleen here. Kathleen, I think you 
will find the Resources Committee and all our Subcommittees are 
always dedicated to getting to what a problem is, trying to 
solve it in a reasonable way, and we hope in a bipartisan way. 
So we welcome you and thank you for the great years of service 
you have put in for the State of Utah and now which we intend 
that you will put in for the U.S. Government. It is a great 
pleasure to have you with us today, and I thank you for being 
here.
    Ms. Clarke. Thank you.
    Mr. Gibbons. Thank you, Mr. Hansen.
    Again, we welcome our witnesses. Ms. Clarke, that is very 
high praise coming from the Chairman of the Committee, and we 
look forward to your testimony after we return from this vote. 
So we will adjourn subject to the call of the chair.
    [Recess.]
    Mr. Gibbons. I call the Subcommittee back to order. At this 
point in time, we will turn to the testimony of our witnesses. 
I am not sure who has decided to lead off in this testimony, 
but I will turn, first, to the Director, then, Ms. Kathleen 
Clarke of the Bureau of Land Management.
    Ms. Clarke?

    STATEMENT OF KATHLEEN CLARKE, DIRECTOR, BUREAU OF LAND 
 MANAGEMENT, U.S. DEPARTMENT OF THE INTERIOR, WASHINGTON, D.C.

    Ms. Clarke. Thank you very much, Mr. Chairman.
    Mr. Chairman and members of the Committee, first of all, 
let me apologize for my voice this morning. I have some inside-
the-Beltway bug that seems to be going around and around at the 
Department of Interior, and I apologize that I may be a bit 
gravely.
    I appreciate the fact that I have our budget officer, Mr. 
Larry Benna, with me, as well as Erick Kaarlela, who is in 
charge of BLM's National Energy Office, to assist me in 
testimony if I lose my voice or if I am needing additional 
guidance.
    Thank you.
    It is really a privilege for me to be here. As you 
suggested, Mr. Chairman, this is my first official hearing 
before a Committee as the Director of the Bureau of Land 
Management. I am very privileged to serve for President Bush. 
We had a meeting with him last night with all of the political 
appointees, and he reminded us all that we are here to serve 
the people and that this Government will be of the people, and 
by the people, and for the people. His sense of values 
resonated so clearly with me that it was a privilege to hear 
him remind us of what we are about as public servants.
    I am also very proud to be a member of Secretary Norton's 
team. I believe that she has assembled a group of dedicated 
professionals who will follow her in applying a philosophy of 
the four ``C's,'' a philosophy that I intend to utilize in 
running the Bureau, and that is to use communication, 
cooperation and consultation in the service of conservation.
    I intend to run the Bureau in a very open and inclusive 
way, respecting all points of view and interests, and engaging 
local communities in making decisions. I also want to assure 
you of my respect for the important role of this body in 
directing policy decisions that affect our Nation's resources.
    I would like you to know that I am an enthusiastic 
supporter of FLPMA's multiple-use mandate for the BLM. Our 
opportunities and challenges at the BLM and every aspect of 
that mandate demand that we have balance in the things that we 
do. In particular, meeting our challenge to respond to critical 
energy needs of this country requires us to address those 
demands of growth and the imperative for conservation.
    Our Federal lands are major sources of coal, gas, oil and 
renewable energy and provide networks for their efficient 
distribution. Through multiple use, we will address those 
needs, as well as the Nation's need for recreation, for areas 
of solitude that nurture our spirits, for clean water and clean 
air. I am convinced that we can do all of these things and we 
will rise to the challenge.
    The subject of this hearing is of great importance, as the 
BLM works to fulfill its critical responsibilities in 
implementing the President's national energy policy. That 
policy identifies a major role for public lands in meeting our 
Nation's energy needs--
    [Ms. Clarke coughing.]
    Ms. Clarke. I am going to get through this.
    Mr. Gibbons. Ms. Clarke, if you would prefer, the Committee 
would receive your testimony, your written statement for the 
record, and you may summarize and keep as brief as possible. 
Because, let me say as a member of the Committee, that a 
gravely voice is absolutely appropriate for the mineral and 
energy Subcommittee.
    Ms. Clarke. That is good to hear. No voice is probably not.
    Certainly, the BLM is producing some of the most 
significant energy resources for our country right now, thirty-
five percent of our Nation's coal, 11-percent of our natural 
gas and 5-percent of its oil. These resources are critical to 
our Nation and, in fact, generate revenues, the highest 
revenues, $2.2 billion in 2001, of any uses of our public 
lands.
    In short, I think we have a major role to play and that the 
overall multiple use mission of the Bureau of Land Management 
relates directly to the quality of life of our country, and one 
piece of that quality of life is our ability to meet our own 
domestic energy needs.
    The President's 2003 budget proposes $1.88 billion for BLM. 
Inclusive in that is a request for $10.2 million in additional 
funds for energy and mineral programs. This budget would 
provide, among other things, increased funding for 
environmentally responsible resource production, including oil 
and gas on the North Slope of Alaska, coalbed methane 
development, further efforts related to implementation of the 
Energy Policy and Conservation Act and the studies directed 
therein, rights-of-way processing, development of renewable 
energy resources, and implementation of the Department's Indian 
trust responsibilities.
    In addition, we will continue a wide array of other 
minerals programs that are also important to our country's 
economy. An additional $1.5 million has been requested for the 
BLM to enhance its oil and gas inspection and enforcement 
capabilities to ensure that public resources are protected.
    We are also requesting an additional almost half-a-million 
dollars to identify ways to expedite the processing of drilling 
permits, with an emphasis right now on coalbed methane 
development.
    We also need to continue the development and implementation 
of common oil and gas reclamation standards. We are requesting 
an additional half a million dollars for coal programs, in 
order to implement the President's national energy policy, by 
processing an additional four post-leasing actions, working to 
resolve conflicts between coalbed methane and coal development 
and expediting the processing of coal lease applications.
    An additional $350,000 in geothermal funding would be used 
to work with users to define barriers to its development, to 
identify opportunities for streamlining application processes 
and to make additional lands available for geothermal leasing.
    The BLM will support the development of other renewable 
energy resources, soil, wind, hydropower and biomass, from the 
public lands. An additional $300,000 will be used to address 
hydropower relicensing projects and another $100,000 will be 
directed to activities related to wind energy.
    The BLM also issues approximately 6,000 rights-of-way 
actions each year. It currently has a backlog of 1,700 
applications, a majority of which are energy related. An 
additional $1.6 million requested in 2003 would be used in part 
to reduce this backlog by processing 400 of those backlogged 
applications and approving rights-of-way for the growing West.
    An additional $3 million is included to address preplanning 
requirements for leasing and development in the National 
Petroleum Reserve-Alaska. These funds would cover new 
inspection and enforcement work, drilling permit processing and 
environmental resource protection.
    The budget request also includes an additional $4 million 
to update other high-priority land use critical plans so that 
we are able to make decisions that will meet the Nation's 
energy and mineral needs.
    One million dollars would be used in 2003 for the agencies 
involved in the EPCA effort to conduct additional studies, to 
inventory all on-shore oil and gas reserves, and to assess any 
restrictions or impediments to the development of those 
resources.
    As part of its Indian trust responsibilities, the BLM also 
provides energy and minerals technical assistance to individual 
Indians and tribes. An additional $150,000 is requested in 
funding to address coal, technical assistance for tribes and an 
additional $750,000 for oil and gas to carry out the national 
energy policy.
    The budget maintains support of other key minerals 
programs, including those related to locatable minerals such as 
gold, copper and many industrial minerals that contribute to 
key sectors of our economy and, again, to quality of life. The 
focus on energy does not mean we will lose sight of other 
important programs at the Bureau.
    Mr. Chairman, as you can see, the BLM anticipates a busy 
and productive effort for its energy and mineral programs. As 
we continue to promote an environmentally sound recovery of our 
Nation's mineral resources and boost renewable energy 
development on public lands, we look forward to working with 
this Committee, as well as the public, States, industries and 
our stakeholders.
    I appreciate the opportunity to meet with you today to 
share these comments and would welcome your questions.
    [The prepared statement of Ms. Clarke follows:]

Statement of Kathleen Clarke, Director, Bureau of Land Management, U.S. 
                       Department of the Interior

    Madam Chairman and Members of the Subcommittee, thank you for the 
opportunity to appear here today to discuss the Fiscal Year 2003 budget 
request for energy and minerals programs administered by the Bureau of 
Land Management (BLM). I am accompanied by Larry Benna, BLM's Budget 
Officer, and Erick Kaarlela, BLM's National Energy Office Director.
                 National Energy Policy Implementation
    The subject of this hearing is of great importance as the BLM works 
to fulfill its critical responsibilities in implementing the 
President's National Energy Policy. That policy identifies a major role 
for public lands and resources in meeting our nation's increasing 
energy needs. The BLM is a primary player in implementing the 
President's National Energy Policy goals of modernizing our energy 
infrastructure, increasing our energy supplies, and protecting the 
environment. The BLM also plays a major role in supporting the 
Secretary of the Interior's Indian Trust responsibilities as they 
relate to energy.
    The Bureau is focusing its efforts on increasing domestic 
production of traditional energy resources, such as oil and gas and 
coal, as well as expanding our emphasis on development of renewable 
energy sources, such as geothermal, hydropower, wind, solar, and 
biomass. The BLM is currently working on more than 40 energy actions to 
implement the President's National Energy Policy. Taken together, these 
actions will help provide both short-term and long-term solutions to 
increasing energy supplies while protecting our natural environment.
             Background on BLM's Energy & Minerals Programs
    Today, the BLM manages the resources on about 262 million acres of 
public land, and more than 700 million acres of Federally-owned 
subsurface mineral estate. These energy and mineral resources are an 
important asset to the Nation, and generate the highest revenues of any 
of the uses of the public lands. In 2001, energy and minerals 
development generated $2.2 billion through royalties, rents, bonuses, 
sales, and fees. The public lands produce 35 percent of the Nation's 
coal, 11 percent of its natural gas, and 5 percent of its oil. These 
lands also produce a large portion of the Nation's mineral materials, 
such as sand, gravel and stone. In 2001, the BLM administered 311 coal 
leases and over 50,000 oil and gas leases, of which approximately 
21,000 oil and gas leases were producing. Federal geothermal resources 
produced over $20 million of revenue and generated 630 megawatts of 
electric power last year. The public lands are also currently being 
used to produce energy from other renewable resources, such as wind and 
hydropower.
        BLM's Proposed Fiscal Year 2003 Energy & Minerals Budget
    The President's 2003 budget proposes $1.9 billion for the BLM, 
including $63 million for the government-wide legislative proposal to 
shift to agencies the full cost of the CSRS pension system and the 
Federal Employee Health Benefits Program for current employees. Without 
the legislative proposal, the 2003 BLM request totals $1.8 billion. The 
BLM is requesting $10.2 million in additional funds for the energy and 
mineral programs it manages. The BLM's 2003 energy and minerals budget 
request provides increased funding for environmentally-responsible 
resource production, including oil and gas on the North Slope of 
Alaska; coalbed methane development; implementation of the Energy 
Policy and Conservation Act (EPCA) study; right-of-way processing; 
development of renewable energy resources; and the Department's Indian 
Trust-related responsibilities. It also supports continued mining law 
administration, as well as coal development and other mineral resource 
production. The BLM's 2003 budget request also includes an additional 
$3 million to update high priority land use plans critical to meeting 
the nation's energy and mineral needs.
    Oil & Gas/Coalbed Methane--Oil and gas operations on Federal and 
Indian lands generate more than $500 million in royalties each year, 
and in 2000, the Federal lands produced over 108 million barrels of oil 
and over 2.1 trillion cubic feet of natural gas. Consistent with the 
President's National Energy Policy, the BLM is enhancing its oil and 
gas inspection and enforcement capabilities to ensure that the public 
resources are protected, and an additional $1.5 million has been 
requested for these programs for 2003.
    Because of industry's interest in natural gas development, 
including coalbed methane, the BLM continues to experience a 
significant increase in requests for oil and gas leases and 
subsequently in drilling permit filings. In 2003, the BLM is requesting 
an additional $496,000 to identify ways to expedite the process of 
approving drilling permits, with an emphasis on coalbed methane 
development; review Bureau policies and practices to facilitate 
development of coal and coalbed methane in areas of development 
conflict; and continue the development and implementation of common 
reclamation standards for oil and gas leases.
    Coal--the United States today. Of all the coal consumed for 
electric generation in the United States, approximately one-third is 
mined from Federal land through coal leases issued by the BLM--much of 
which originates in the Powder River Basin in Wyoming and Montana.
    With $500,000 in additional funding for coal programs, the Bureau 
will work to implement the President's National Energy Policy. With 
this funding, the BLM will process four additional post-leasing 
actions. The BLM will also review current procedures, work to more 
effectively resolve the conflicts between coalbed methane and coal 
development, expedite the processing of coal lease applications, and, 
if warranted, revise royalty rate guidelines.
    Renewable Resources--The BLM currently administers 55 producing 
geothermal leases that generated over $20 million in revenues in Fiscal 
Year 2001. An additional $350,000 in geothermal funding will be used in 
2003 to support the National Energy Policy by working with users to 
define development barriers and identify opportunities for streamlining 
the geothermal application process and making additional lands 
available for geothermal leasing.
    The BLM will also support the development of other renewable energy 
resources--including solar, wind, hydropower, and biomass--from the 
public lands in 2003. An additional $300,000 will be used to address 
hydropower relicensing projects, while another $100,000 will be 
directed to activities related to wind energy development that will be 
addressed through cooperation with the Department of Energy's Renewable 
Energy Laboratory.
    Rights-of-Way--Addressing national energy needs includes providing 
a means for transportation and transmission of energy supplies. The BLM 
issues approximately 6,000 right-of-way (ROW) actions each year, 
including 2,700 ROW grants and amendments. Currently, the BLM has a 
backlog of about 1,700 ROW applications, of which about 1,000 are 
needed to support energy development. Because of increased energy 
demand, the need for energy-related ROWs also will increase. An 
additional $1.6 million requested in 2003 would be used, in part, to 
reduce the energy ROW backlog by 40 percent by processing 400 more 
energy applications.
    Alaska's North Slope--The North Slope of Alaska is the nation's 
best prospect for substantial new oil and gas production, and the 
Bureau is working on 10 National Energy Policy actions that are 
specific to oil and gas development and production in that area. In the 
National Petroleum Reserve-Alaska (NPR-A), the BLM offered leases in 
1999 that generated $104 million in bids. Exploration in NPR-A is 
pioneering new technologies that minimize environmental impacts, and 
represent the cleanest operations in the world. In 2001, industry 
announced a major new discovery in the area that could be the largest 
in the United States in the last ten years. The BLM is continuing to 
pursue a biennial leasing strategy in the Northeast sector of NPR-A. 
The BLM also is pursuing the expansion of the area offered for lease to 
include the Northwest sector of NPR-A, and anticipates the completion 
of the Northwest NPR-A plan and EIS in 2003 and a first sale in 2004.
    An additional $3 million is included in the 2003 budget to address 
the pre-planning requirements and the coordination required between all 
involved agencies for leasing and development in NPR-A. Funds would 
cover new inspection and enforcement work, drilling permit processing, 
and BLM's partnership obligations with the Minerals Management Service. 
Additionally, these funds would cover monitoring of exploration 
activities, and protecting environmental, wildlife and subsistence 
resources.
    Also, if Congress passes legislation that authorizes the leasing of 
oil and gas in a portion of the Arctic National Wildlife Refuge (ANWR), 
the BLM would be responsible for conducting lease sales and oversight 
of exploration and development. If legislation does not provide that 
existing NEPA analyses are sufficient, the BLM will work in 
coordination with the Fish and Wildlife Service to prepare a land 
activity plan and an accompanying Environmental Impact Statement (EIS). 
The BLM will be responsible for preparing operating and leasing 
regulations; developing stipulations to mitigate impacts; and 
conducting a tract delineation to determine the appropriate 
configuration for the lease sale.
    Energy Policy & Conservation Act (EPCA) Study--The Energy Policy 
and Conservation Act Reauthorization of 2000 requires an inventory be 
completed of all onshore oil and gas reserves and any restrictions or 
impediments to the development of those resources. The BLM, as lead 
agency of the EPCA study, is working closely with the Department of 
Energy, Forest Service, and U.S. Geological Survey to expedite the EPCA 
study in support of the National Energy Policy. The initial study 
focuses on five priority areas within the Rocky Mountains, and is 
expected to be completed by the end of April 2002. Once this initial 
study is completed, the BLM will initiate studies of other areas. The 
results of these studies will provide the Bureau with a better basis to 
ensure timely planning on Federal lands, allowing for the development 
of oil and gas resources with minimal restrictions while providing for 
sound environmental protection.
    Indian Trust Responsibilities--As part of its Indian Trust 
responsibility, the BLM provides energy and minerals technical 
assistance to individual Indians and Tribes by conducting mineral 
resource evaluations; approving drilling permits, mining plans, and 
production plans; inspecting operations; and enforcing conditions of 
approval. An additional $150,000 in funding is included in the Fiscal 
Year 2003 budget to address coal technical assistance, and an 
additional $750,000 is included for oil and gas activities to carry out 
the National Energy Policy.
                               Conclusion
    Madam Chairman, as you can see, the BLM anticipates a busy and 
productive Fiscal Year 2003 for its energy and minerals programs. As we 
continue to promote the environmentally-sound recovery of the nation's 
mineral resources and boost renewable energy development on our public 
lands, we will continue to work with Members of this Subcommittee, as 
well as the public, states and industry.
    Thank you for the opportunity to testify before you today. I 
welcome any questions the Subcommittee may have.
                                 ______
                                 
    Mr. Gibbons. Thank you, Ms. Clarke. We look forward to 
having your response to those questions as well.
    We turn now to Mr. Thompson. Mr. Thompson, of course, is 
the Deputy Chief, I believe, of the Forest Service. Mr. 
Thompson, I am apologetic because I don't know how long you 
have been in this position, but we look forward to hearing your 
remarks.
    The floor is yours.

STATEMENT OF TOM THOMPSON, DEPUTY CHIEF, FOREST SERVICE, UNITED 
       STATES DEPARTMENT OF AGRICULTURE, WASHINGTON, D.C.

    Mr. Thompson. Thank you, Mr. Chairman, and thank you very 
much for inviting me here today to discuss our 2003 Minerals 
and Geology program.
    I am pretty recent to Washington, D.C., as well. I have 
been here 4 months. I moved here from Denver, Colorado, where I 
have been the deputy regional forester for the last 12 years in 
the Rocky Mountain Region, and I have been with the Forest 
Service for 34 years.
    Mr. Gibbons. Well, I am not sure we should be 
congratulating you on moving to Washington, D.C., but 
congratulations on your promotion.
    [Laughter.]
    Mr. Thompson. With me today is Hank Kashdan. Hank is the 
director of Program and Budget Analysis for the Agency.
    Today, I would like to briefly describe the Forest Service 
minerals and geology program and management and how we are 
using the available resources to implement the national energy 
policy.
    The national forests and grasslands have historically 
provided substantial benefits to the public through both 
exploration, development and production of energy and mineral 
resources. A significant part of that has been the coal 
resources. In particular, recently, in the Powder River Basin 
in Wyoming, coal has been a very important resource in that 
part of the country and certainly has been a major part of this 
country's valuable energy resource.
    Today, energy and minerals production from our national 
forest and grasslands continues to provide valuable and often 
overlooked benefits. This includes benefits to the environment, 
to the economy, rural community stability, and increased 
revenues. These benefits can be obtained in an environmentally 
sensitive manner and generally require only a small footprint 
on the land.
    National forests contain a number of world-class mineral 
deposits. For example, the only platinum mine in the Western 
Hemisphere lies within a national forest, on the Custer. An 
environmental benefit, not widely known, is that platinum 
produced from these national forest system lands is an 
essential component to catalytic converters. These converters, 
required in almost every gas-powered vehicle, are very 
important in reducing emissions and increasing the quality of 
air that we breathe.
    About 3 years ago, the Forest Service conducted some 
analysis, economic analysis, which showed that, during the last 
10 years, energy and minerals production from national forest 
system lands have sustained over 100,000 jobs annually, while 
the total value of all production is estimated to exceed $25 
billion. In addition, the Federal Government and states have 
shared in over $2 billion in revenues collected from energy and 
minerals leasing on national forest system lands.
    The minerals and geology program emphasizes maintaining 
sustainable forest resources, protecting watershed health, 
providing for public safety and managing significant geologic 
resources, while also providing for thorough and timely 
environmental review of proposed projects and monitoring 
inspection of ongoing projects.
    In 2000 alone -- and we have a recent brochure called 
``Mineral Facts: Minerals on the National Forest,'' that was 
released last November. There are facts in there about the 
amount of coal, to put it in simpler terms than maybe tons, the 
amount of coal that we produced in Fiscal Year 2000 was about 
750,000 rail cars and enough natural gas to heat 1,200,000 
homes. This came from national forest system lands.
    The major components of our program are the leasable 
minerals, oil, gas and coal. We also produced geothermal, hard-
rock minerals from acquired lands, and certain other 
commodities specified in law.
    Prior to leasing, we involve other agencies in public and 
environmental reviews to determine if leasing is acceptable and 
whether special measures are needed to protect the environment. 
If a lease is issued, we conduct very site-specific 
environmental analysis and closely monitor operations through 
the final reclamation of the site.
    Another part of the program is our locatable minerals 
program. In Fiscal Year 2000, we produced over 529,000 ounces 
of gold, 10 million ounces of silver, 178 million pounds of 
copper, 94,000 ounces of platinum, large quantities of zinc, 
and molybdenum and other precious base and industrial minerals 
as well under the Mining Law of 1872.
    The Forest Service reviews proposed operations in a timely 
manner to determine if mitigation measures are required to 
protect other values. If proposals involve large mines or 
sensitive settings, we ensure that Environmental Impact 
Statements are prepared and that proper mitigation measures are 
incorporated.
    Another part of our program is the saleable minerals 
program. Produced in 2000 were 13 million tons of aggregate, 
56,000 tons of gypsum and 4 million tons of limestone, large 
quantities of sand, gravel and other common-variety minerals.
    These materials are usually made available to individuals, 
municipalities, Government agencies, nonprofit organizations at 
no charge or sold at appraised value or by competitive sale if 
they are used commercially. We also use large quantities of 
these materials in construction and maintenance of public 
access and facilities on national forest system lands.
    Another part of the program has to do with reserved and 
outstanding mineral rights which involve privately owned 
minerals underlying national forest system land. For reserved 
minerals, the Forest Service implements reserve mining 
regulations which are appended to conveyance deeds at the time 
of acquisition.
    The geologic program or part of the component of the 
program involves acquiring and analyzing information on 
geologic conditions and hazards for purposes of forest 
planning, project design, public employee safety, managing the 
paleontological resources, caves and other significant geologic 
features.
    During Fiscal Year 2003, we will inspect and monitor 15,000 
energy and mineral operations varying from small basic 
prospecting activities to major mining developments. We will 
also complete environmental analyses and coordination with 
other agencies in processing almost 10,000 new proposed 
operations.
    In each case, these numbers represent an increase of 
approximately 1,000 operations over what we will do this fiscal 
year. This additional work is made possible because of the 
President's Fiscal Year 2003 budget of $56 million for our 
minerals and geology management program, and that includes $5 
million that will be committed to new energy operations to 
implement the national energy policy.
    Of particular importance will be the development of the 
coalbed methane in the Rocky Mountain States. The long-term 
value of coalbed methane from national forest system land is 
potentially billions of dollars.
    In response to the Executive Orders 13211 and 13212 and the 
national energy policy, the Forest Service developed, and 
Secretary Veneman approved, the Forest Service Energy 
Implementation Plan. The Forest Service plan assigned 
responsibilities for specific action items and examined all 
major energy resources of the national forest system land, 
including hydroelectric, fossil fuels, geothermal, biomass, and 
bioenergy and also considered infrastructure, research and 
technology transfer.
    In an August 6th, 2001, follow-up memo to Forest Service 
line officers and staff, Chief Bosworth emphasized his 
commitment to complete implementation of this plan within the 
Forest Service. Of course, we know we're not alone. We work 
very closely with other Federal agencies, Indian tribes, State 
and local Governments, the public and other interested parties 
to meet our Nation's energy needs while protecting the 
environment.
    Mr. Chairman, that completes my formal statement, and I 
will be glad to answer any questions.
    [The prepared statement of Mr. Thompson follows:]

     Statement of Tom Thompson, Deputy Chief, Forest Service, U.S. 
                       Department of Agriculture

    Madam Chairman, thank you for inviting me here today to discuss our 
2003 minerals and geology program. I am Tom Thompson, Deputy Chief of 
the Forest Service. With me today is Hank Kashdan, Director of Program 
and Budget Analysis.
    Today I would like to briefly describe the Forest Service Minerals 
and Geology Management program and how we are using available resources 
to implement the National Energy Policy.
    The National Forests and Grasslands have historically provided 
substantial benefits to the public through exploration and production 
of energy and mineral resources--not the least of which have been the 
prodigious quantities of coal from the Powder River Basin in Wyoming. 
Coal began replacing wood as a primary fuel during the 1800's and early 
1900's. This switch to using the concentrated energy found in coal 
allowed us to not only maintain, but to make significant improvements, 
in the many amenity values the public enjoys in our nation's forests 
today.
    Today, energy and minerals production from our National Forests and 
Grasslands continues to provide valuable, but often overlooked 
benefits. This includes benefits to the environment, the economy, rural 
community stability, and increased revenues. These benefits are 
obtained in an environmentally sensitive manner and require only a 
relatively small, short-term footprint on the land.
    National forests contain a number of world-class mineral deposits. 
For example, the only platinum mine in the western hemisphere lies 
within a national forest. An environmental benefit, not widely known, 
is that platinum, produced from NFS lands, is an essential component of 
catalytic converters. These converters, required in almost every gas-
powered vehicle, are used to reduce harmful emissions and increase the 
quality of the air we breathe.
    In Fiscal Year 2000 alone, as stated in ``Mineral Facts--Minerals 
on National Forest System Lands,'' released in November 2001, coal that 
would fill 750,000 rail cars and enough natural gas to heat 1,200,000 
homes came from national forest system lands.
    About three years ago Forest Service economists conducted an 
analysis which showed that during the last 10 years, energy and 
minerals production from national forest system lands have sustained 
over 100,000 jobs annually while the total value of all production is 
estimated to exceed $25 billion. In addition, the Federal Government 
and the States have shared in over $2 billion in revenues collected 
from energy and minerals leasing on national forest system lands.
    The minerals and geology program emphasizes maintaining sustainable 
forest resources, protecting watershed health, providing for public 
safety, and managing significant geologic resources while providing 
thorough and timely environmental review of proposed projects and 
monitoring and inspection of ongoing operations.
    Major components of the program are:
    <bullet> LLeasable minerals--including oil and gas, coal, 
geothermal, hardrock minerals in acquired lands, and certain other 
commodities specified in law. Some minerals produced from NFS lands in 
Fiscal Year 2000 include:
        *Coal--79 million tons
        *Oil--8.3 million barrels
        *CO<INF>2</INF>--12 billion cubic feet
        *Natural Gas--101 billion cubic feet
    Prior to leasing, environmental reviews that involve the public and 
other agencies are completed to determine if leasing is acceptable and 
whether special measures are needed to protect the environment. After 
lease issuance, site-specific environmental analyses are completed, and 
operations from beginning through final reclamation of the site are 
monitored.
    <bullet> LLocatable minerals--including gold, silver, copper, zinc, 
molybdenum, and other precious, base, and industrial minerals made 
available under the Mining Law of 1872. Some examples of locatable 
mineral production during Fiscal Year 2000 are:
        *Gold--529,000 ounces
        *Silver--10 million ounces
        *Platinum--94,000 ounces
        *Copper--178 million pounds
    The Forest Service facilitates exploration, development, and 
production of these resources by reviewing proposed operations in a 
timely manner to determine if mitigation measures are required to 
protect other values. If proposals involve large mines or sensitive 
settings, the Forest Service ensures that environmental impact 
statements are prepared and that proper mitigation measures are 
incorporated. Operations are inspected and monitored from beginning 
until final reclamation is completed.
    <bullet> LSaleable minerals--includes sand, gravel, pumice, 
cinders, building stone, and other fairly common materials that are of 
considerable importance in meeting community construction, road 
building, and landscaping needs. Examples of production levels of these 
minerals from NFS lands in Fiscal Year 2000 are:
        *Aggregate--13 million tons
        *Gypsum--56,000 tons
        *Limestone--4 million tons
    These materials are made available, on a discretionary basis, in 
small quantities to individuals at no charge, or sold at appraised 
value or by competitive sale if used commercially. They are usually 
made available to municipalities, government agencies, and nonprofit 
organizations at no charge. The Forest Service also uses large 
quantities of mineral materials in construction and maintenance of 
public access and facilities.
    <bullet> LReserved and outstanding mineral rights involve privately 
owned minerals underlying NFS lands. For reserved minerals, the Forest 
Service implements reserved mineral regulations which are appended to 
conveyance deeds at the time of acquisition. For outstanding minerals 
the Forest Service cooperates with developers of private minerals to 
minimize effects on forest resources and users, and to ensure proper 
reclamation;
    <bullet> LThe geologic component of the program involves acquiring 
and analyzing information on geologic conditions and hazards for 
purposes of forest planning, project design, public and employee 
safety, and managing fossils, caves, and other significant geologic 
features. We are very active in protecting and managing these 
resources, especially paleontological resources, which often have high 
commercial value in addition to their scientific, educational, and 
recreational value.
    During Fiscal Year 2003 we expect to inspect and monitor over 
15,000 energy and mineral operations ranging in scale from basic 
prospecting activities to major mining developments. This is done to 
ensure operator compliance with permit terms and to determine the 
effectiveness of measures developed during the NEPA process. We will 
also complete necessary environmental analyses and coordination with 
other agencies and the public in the processing of almost 10,000 new 
proposed operations.
    In each case, these numbers represent an increase of approximately 
1,000 operations over Fiscal Year 2002. This additional work is 
possible because the President's Fiscal Year 2003 Budget of $56,049,000 
for our minerals and geology management program includes $5 million 
that will be committed to new energy operations to implement the 
National Energy Policy. Of particular importance will be the 
development of coal bed methane in the Rocky Mountain States. The long-
term value of coal bed methane from NFS lands is potentially worth 
billions of dollars.
    In response to Executive Orders No. 13211 and 13212 and the 
National Energy Policy, the Forest Service developed and Secretary 
Veneman approved the ``Forest Service Energy Implementation Plan''. The 
Forest Service plan assigned responsibilities for specific action items 
and examined all major energy resources of the National Forest System 
including hydroelectric, fossil fuels, geothermal energy, and biomass 
and bioenergy. Also considered were infrastructure, research, and 
technology transfer.
    In an August 6, 2001 follow-up memo to all Forest Service line 
officers and staff, Chief Bosworth emphasized his commitment to the 
complete implementation of this plan within the Forest Service.
    Of course we know we are not in this alone. We are working closely 
with other Federal agencies, Indian Tribes, State and local 
governments, the public, and other interested parties to meet our 
commitment to meet our Nation's energy needs while protecting the 
environment.
    Madam Chairman, that completes my formal statement. I will be glad 
to answer any questions you or Members of the Subcommittee may have.
                                 ______
                                 
    Mr. Gibbons. Thank you very much, Mr. Thompson.
    For the members of the Committee, we are going to adhere to 
the five-minute rule, and I will start off first with 
questioning.
    Let me say that in a perfect world, and if we were all 
emperors for the day, for the week, for the year, we could 
create a perfect budget that each one of us, I am sure, would 
like to say meets every need that we personally feel. So we can 
always second guess the budgets, I am sure, and sit up here and 
speculate how it should be spent or how much we each should be 
spending on every area, but I am not going to do that. What I 
want to do is make sure that the money and the resources that 
we are giving to you are adequate for the job we expect you to 
do and know how they are being spent.
    I guess my first question would be just a generalized 
question if you could help me out and better understand how 
much of the United States' energy needs are met by fossil fuel 
versus renewable fuels today, in a percentage basis? Does 
anybody have that information?
    Ms. Clarke. I don't have that information right now. I 
would be happy to see if I can give you some answers for the 
record.
    Mr. Gibbons. I realize both of you have been on this job 
extremely short periods of time, so if you would answer that, 
and also please help me better understand that by telling me 
what the change has been over the last decade in the 
relationship between the two. I would like to see where we are 
going as a Nation.
    Let me talk a little bit about geothermal, if I may, 
because geothermal is an important renewable energy, in my mind 
and in the United States, as well as it is important for the 
State of Nevada as well. I want to ask Ms. Clarke how many 
geothermal leases does the BLM plan to hold or lease sales does 
the BLM plan to hold in the Fiscal Year 2003?
    Ms. Clarke. Let me consult with some of the folks who may 
have the details.
    We have plans for four of them in Nevada.
    Mr. Gibbons. And in the California and Northwest area, how 
many would be the total geothermal?
    Ms. Clarke. I don't think we have those figures. There are 
four that are on our radar screen right now.
    Mr. Gibbons. I understand that there was a recent Interior 
Board of Land Appeals' decision that affirmed an appeal of the 
adequacy of the Medicine Lake Geothermal Environmental Impact 
Statement. What are BLM's plans in light of that decision and 
will you be revisiting your previous decision after the IBLA 
decision?
    Ms. Clarke. Congressman Gibbons, I am not familiar with 
that IBLA decision. I would be happy to look into that and get 
back to you on that question.
    Mr. Gibbons. Let me turn to the Forest Service now, and it 
is pretty much the same question. At a hearing on geothermal 
energy, witnesses testified that the Forest Service has never 
acted on lease applications for thousands of acres in Northern 
California and the Pacific Northwest for geothermal. Many of 
these applications were in known geothermal areas. Can you 
explain what the problem has been with those applications and 
does the Forest Service in the Fiscal Year 2003 budget request 
include money to remedy the situation we just talked about or 
the inaction on these applications?
    Mr. Thompson. Currently, we have 148 geothermal leases on 
258,000 acres, and most of that is in the Pacific Northwest. We 
also have 96 nominations or applications for geothermal leases 
on 139,000 acres. Most of those nominations are along the crest 
of the Cascades, the Deschutes, the Gifford Pinchot, the Mount 
Baker-Snoqualmie, Mount Hood, and the Willamette National 
Forest. In Region V, California, Northern California, there are 
two development projects, the Four-Mile Hill and the Telephone 
Flats, in the Medicine Lakes area, and both of those are being 
litigated. A lot of the issue that is being debated and 
discussed, those two, in particular, have to do with Native 
American groups, cultural consultation.
    With regard to the 2003, our tentative projections, there 
would be probably an additional $500,000 to each region, Region 
V and Region VI, that would probably be allocated to the 
regional forester, with the intent that they would use it for 
the highest priority mineral and geology work. Certainly, in 
the Pacific Northwest, geothermal is a very large part of their 
program.
    Mr. Gibbons. Let me ask one final question in the 1 second 
I have remaining, which will only take a yes or no answer. Do 
you believe the additional $500,000 that you are allocating in 
the budget for that is adequate to cover the permitting 
processes and speed up the process?
    Yes and no, I guess.
    [Laughter.]
    Mr. Thompson. I think it would be hard to just say yes or 
no. It depends upon the priorities. My feeling, there will 
probably be some things that will not get done.
    Mr. Gibbons. Welcome to Washington.
    Mr. Thompson. Pardon?
    Mr. Gibbons. I said welcome to Washington. That is the 
answer I would have expected.
    Mr. Kind?
    Mr. Kind. Thank you, Mr. Gibbons. Actually, this is an area 
that I think we have a common interest in, how we can further 
explore the development of geothermal potential in this 
country. Obviously, the President and First Lady saw the merits 
of it, since they did it themselves on their own private ranch 
down in Texas, relying on geothermal power.
    This Committee last August took a fact-finding tour of 
Iceland, checking out the latest technology in geothermal 
development and the use in that country. Kenya, I understand, 
is on a 10-year plan on geothermal power to have 25 percent of 
their energy needs based on geothermal. I think there is so 
much more potential in this country in that area. Even in 
Wisconsin, there are private companies, high schools being 
built now relying on geothermal as an energy source for their 
energy needs as well.
    That is why I kind of look at the budget, and you see the 
proposed increase from $350,000 to $700,000, a doubling of the 
geothermal budget, and I kind of look at it and shake my head 
and think it is a very paltry sum, given the tremendous 
potential.
    I know, Ms. Clarke, you are new to the position, and you 
are coming up to speed on a lot of these issues, but perhaps 
you could help me in your office, if your staff could supply 
some information on just some preliminary estimates on the real 
potential that exists out there for geothermal development on 
our public lands, what the demand is like, the technology and 
whether we can ramp that program up to a much greater extent 
than what we are seeing reflected in the budget requests. I do 
believe it is not going to be the panacea, but certainly could 
be a significant piece to the overall energy puzzle that we 
have to put together here.
    Ms. Clarke. Representative, as you are aware, Secretary 
Norton held a national conference on renewable energy in I 
think it was November. There was a follow-up at the end of this 
month, and we are working closely with the Department to 
develop the kinds of information you want and aggressive action 
plans. Certainly, it is an area with untapped potential. I 
think, as we better understand that potential and as we commit 
ourselves toward those ends, we will have better proposals and 
probably more expansive opportunities for us to really look at 
the public lands as a siting for that type of activity.
    I would also welcome partnerships. I think that the 
conference is intended to identify potential partners and 
create the future, so to speak, defining what we can do and 
what we should be doing in that arena. I think we need to 
maximize all of these opportunities in order to meet the 
demands of this country for energy resources.
    Mr. Gibbons. I think most of us, and those who have been 
somewhat critical of the President's energy plan, and there is 
no shortage on this side of the aisle, understand that we are, 
by and large, a fossil fuel-dependent Nation, and that is not 
going to change over night, but we should be looking at some 
transition period to tap into the latest technology and 
exploring the potential alternative renewable energy sources.
    We are just somewhat frustrated that it is not really 
reflected in the budget. In fact, so much attention, and I 
think so much distraction has been given to the Arctic National 
Wildlife Refuge, the golden goose up there, and the potential 
for oil reserves, but I just have a couple of budgetary 
questions in that regard. Because I see, again, in the budget 
that the administration is anticipating 2004 lease sales up in 
the Wildlife Refuge, anticipating $2.4 billion in bonus payment 
bids that would come in, which is also consistent with last 
year's anticipation, even though the market price has changed.
    I am wondering, given the stalemate that exists right now 
in regards to the national debate on drilling in the Arctic 
National Wildlife Refuge, what is the budgetary impact if, in 
fact, it doesn't become part of the national energy plan and 
these bids do not take place, given the reliance on that in 
order to balance things out?
    Ms. Clarke. My understanding is that, for BLM, we will 
continue to roll ahead with the funds that are identified in 
the budget for us to proceed with North Slope activities. We 
have many activities up in the National Petroleum Reserve-
Alaska, and so much of our effort is up there, and that is an 
area that has been identified, and appropriately so, for 
drilling and lease activities at this time.
    I commit that I will work with this Committee to build on 
all of our opportunities to address the energy needs for this 
country, and running a very open and accountable process with 
this Committee on budget questions and challenges.
    Mr. Kind. Given British Petroleum's recent statements about 
the additional cost of drilling up there and given the 
potential that already exists such as in the Gulf and the 
deeper water drilling, the technology that that brings, and 
also the leaseholds that are already available on that, I 
guess, it just seems more logical to concentrate on where there 
is already common agreement rather than focusing on something 
that can polarize the Nation, especially drilling up there.
    Finally, again, in the administration's budget, 
anticipating a $2.4 billion-bonus payment on drilling in the 
Wildlife Refuge, it appears as if you are using a 50-50 split 
with the State of Alaska in regards to what the administration, 
what the Federal Government would receive. Whereas, under 
existing State law, and correct me if I am wrong, Alaska is now 
entitled to a 90-10 split. How does the administration justify 
the 50-50 split, unless we intend to supersede Alaska State 
law, and I imagine the Alaska delegation would cry foul pretty 
quickly if that is the administration's intent.
    Ms. Clarke. Representative, having not really been at the 
table when so much of this budget was developed, I am not in a 
good position to answer that question. I would be happy to get 
back to you.
    Did you hear me? I said having not been on board and at the 
table when most of this budget was developed, I am not sure 
what discussions and negotiations have been put into place that 
supported the budget as you now see it. I would be happy to get 
back to you on that question.
    Mr. Kind. Thank you very much. I see my time has expired.
    Mr. Gibbons. Thank you, Mr. Kind.
    Mr. Inslee?
    Mr. Inslee. Thank you, Mr. Chairman.
    I would like to ask Mr. Thompson and Ms. Clarke, both of 
you, can you describe efforts that your agencies have or will 
be making on the energy efficiency front with your own 
operations; for instance, efforts to improve efficiency of your 
vehicle mileage. Perhaps that is a place to start. The 
efficiency of your buildings, could you describe what you have 
done and what perhaps you are considering in the future.
    Ms. Clarke. I am aware that there are efforts taking place 
within the Department of Interior, in general, about energy 
efficiency. I cannot point to the specifics. I will share with 
you that in my position as director at the Department of 
Natural Resources in Utah, we undertook a major energy overhaul 
of our existing buildings and of our vehicles. We were able to 
reduce energy consumption and became the model for the State.
    So I think it is the responsibility of Government to set a 
high standard, and while we are spending tax dollars, it is our 
duty to make sure that we are not wasting those on energy 
inefficiency. So I would certainly support that kind of effort 
because I know there are things taking place in that vein, but 
I can't share with you those specifics. I would be happy to get 
back to you with more detail.
    Mr. Inslee. I am sorry. You referred to which agency you 
were involved with?
    Ms. Clarke. When I was the director of the Utah Department 
of Natural Resources, we took a very aggressive path in dealing 
with energy efficiency, not just in our buildings, but trying 
to lead the movement into all Government buildings as well. We 
were very progressive in terms of using alternative energy 
sources and partnered with other Agencies in providing solar 
energy to the National Park Service. We had some great 
partnerships. I think there are a lot of opportunities we can 
and should tap into.
    Mr. Inslee. So, from what you have seen to date and looking 
at the budget that we are looking at, does the Federal 
Department of Interior's efforts in those directions, as far as 
vehicle efficiency, building energy use efficiency, use of 
alternative fuels, does the Federal Department of Interior 
match the State of Utah's Department of Natural Resources that 
you have just described?
    Ms. Clarke. Like I said, having just gotten my feet on the 
ground in this arena, I can't tell you exactly what efforts are 
underway, but I am privy to the fact that there are initiatives 
taking place. We are measuring our reduction in energy 
consumption in the building I work in. That is clear. There are 
employee incentives and employee reminders.
    So I know that there are activities that are in place right 
now that are focused on reducing our energy consumption, both 
in vehicles and in buildings. I can't give you the specifics of 
the programs or their effectiveness to this date. I would be 
happy to check into that and get back to you.
    Mr. Inslee. If you could, that would be appreciated. We 
would like to know what budgetary efforts are being made in 
that regard. The reason I say this is that the President is 
going to announce a global climate change initiative today, I 
am told. It really seems to many of us that a first place to 
start is in our own house and try to have the Federal 
Government be a leader to show the way for the whole economy 
and some of these things that are possible.
    The Federal Government has been a leader when we went to 
the moon. We did some things private enterprise didn't do, and 
many of us think we need to do that the same, and we can use 
our agencies to be leaders. So we would encourage that effort.
    I would ask you if you can, perhaps, articulate to me in 
writing what we are doing and what you are considering doing. I 
would appreciate that.
    Mr. Thompson, do you want to take a stab at this?
    Mr. Thompson. Yes. In our implementation plan, we have a 
number of items in there that we have developed over the last 
year which focus in that direction. One of them has to do with 
bioenergy, and we are committed to working with the EPA to 
encourage Forest Service field units, our co-operator State 
foresters and other co-operators to consider using bioenergy, 
using that on a small scale, wind power, that kind of thing.
    We are also, in the Black Hills National Forest in South 
Dakota, we are using and trying to convert vehicles to a 
soybean diesel fuel. There are a lot of opportunities. A lot of 
our work would be done with a forest products lab in Madison, 
Wisconsin, attempting to work on housing designs and 
structures. Certainly, over the years, Forest Service 
facilities, when we have a research and development finding, 
one of the first places that we test it is in our own 
buildings.
    So I think there is an awful lot of opportunity. There is a 
lot of challenge in getting it. We have got a tremendous 
backlog of buildings and structures that are needing upgraded. 
Certainly, as we do those, there will be every attempt to 
increase energy efficiency in those places.
    Mr. Inslee. Ms. Clarke, could you, if you were going to 
contrast your Agency's expenditures on work associated with 
development of fossil fuel-based resources on your property 
versus development of, say, wind power on your property, how 
would those two numbers stack up?
    Ms. Clarke. My understanding of the budget is that we have 
a very small piece right now for development of wind energy 
resources. I, again, think that there is ample room for us to 
expand on our understanding of those potentials and 
opportunities, but we are starting out with partnerships and 
trying to envision what we ought to be doing and where we ought 
to be going. It is, certainly, an untapped opportunity.
    Mr. Inslee. Could you give me any flavor for the numbers 
there? Is it 99-percent fossil and 1-percent wind? Could you 
give me any feeling for--
    Ms. Clarke. Let me see if I can--do you have that?
    [Pause.]
    Ms. Clarke. It has been suggested to me that about 95 
percent of our funding is probably going to fossil fuel 
activities, 5 percent, perhaps, to the alternative.
    Mr. Inslee. Well, we want to explore with you ways to 
change those numbers. The reason I say that is that I think, 
and I don't think I am alone in saying that we are going to 
have to change our usage, our percentage, our portfolio due to 
climate change considerations. Denmark is going to have 50 
percent of their electricity generated by wind in the next 10 
years. This is possible.
    I believe there is enormous untapped energy potential on 
Federal lands in this Nation, and if we continue to have 95 
percent of last century's climate change gas-emitting 
industries and 5 percent in clean, nonclimate change emission, 
we are never going to get to where the President I think today 
will say you need to go.
    So I am going to tell you I am going to commit myself to 
try to change those numbers. What can you do to change those 
numbers?
    Ms. Clarke. Representative, I think we are obviously at a 
crossroads in this country where a lot of paradigms are 
changing and where focuses are shifting as we start to 
recognize the incredible growth in this country is butting up 
against a lot of other values that we care about and cherish in 
this Nation.
    When I was confirmed, I made a commitment that I saw that 
conservation of our lands was an imperative. I do believe that. 
I think we also need to deal realistically with the growth in 
this country and the quality-of-life challenges. And I agree 
with you, public lands are a place where we can turn to for all 
kinds of products and services that address that. I will look 
forward to working with this Committee to come up with 
appropriate budgets to meet those challenges and to balance the 
competing demands that we have.
    Mr. Inslee. I haven't seen the President's proposal that he 
will be announcing today, but it has some voluntary, I think--
one more question here?
    Mr. Gibbons. Sure.
    Mr. Inslee. I am sorry. I missed the light. My apologies.
    Mr. Gibbons. That is all right. You are only about 3.5 
minutes over.
    [Laughter.]
    Mr. Inslee. Would you defer one more; is that OK, Mr. 
Chair?
    Mr. Gibbons. Yes.
    Mr. Inslee. Thank you. I appreciate that. I am enjoying the 
testimony.
    Does the Department anticipate setting any internal limits 
for itself on global climate change gas emissions from its 
lands? For instance, do you anticipate saying we are going to 
only have this amount of emissions associated with energy 
production on our lands and set a goal for nonclimate change 
emission standards? Is that in your game plan at all?
    Ms. Clarke. I am not aware of any decisions that have been 
made at the Department level or discussions with any bureau at 
this time. I would appreciate the opportunity to go back and 
check on that and report to you on the record.
    Mr. Inslee. We hope you will do that. I appreciate your 
time.
    Thank you, Mr. Chair, for your indulgence.
    Mr. Gibbons. Mr. Inslee, we will probably come back for a 
wrap-up question. I have a couple of extra ones, and we will 
certainly grant you the courtesy to do that as well.
    I wanted to ask the BLM a real simple question. I 
understand that the BLM has requested an $800,000 budget item 
for an Environmental Impact Statement on the Black Leaf area of 
Western Montana for proposed oil drilling and gas drilling, 
which was turned down.
    Wasn't there an EIS prepared in the mid-nineties for that 
same area? If there was, since that EIS was already completed, 
why does the cost to update an existing EIS require so much 
money?
    Ms. Clarke. I probably need to check into that. I had a 
discussion this morning with folks on my staff about that. I 
was told that there is an update and an active EIS in progress, 
but I have not been able to verify that myself, nor did I have 
a chance to get a call into the State director to find out what 
his intent was in requesting that additional money and what 
effect its not receiving that had on those activities there.
    So, like I say, I have had a brief conversation, but I am 
not real confident of the details at my command right now, 
Representative, and I would like to get back to you.
    Mr. Gibbons. What is the BLM doing right now with the nine 
pending applications for drilling in the Missouri Breaks 
National Monument area?
    Ms. Clarke. My understanding is that we are working in 
collaboration on better understanding what our opportunities 
are there. I know that with the national monument that there 
are limits to the way we deal with those valid, existing 
rights, but that we are trying to come up with some 
collaborative approaches to move forward in ways that are 
acceptable.
    Mr. Gibbons. Maybe both of you could just tell me what the 
process you are going through, both with the Forest Service and 
with the BLM, to assist in reducing the United States' 
dependency on foreign, imported oil.
    Ms. Clarke. I know that when the President laid out the 
national energy plan, the BLM identified over 20 items on his 
nearly 100-item list that we felt we were directly responsible 
for, that we could make contributions toward their enactment.
    We have translated that list of 20 into 43 action items and 
feel that we have a direct impact on the reduction of our 
dependence on foreign oil to the extent that we are able to 
move forward on those items and to correct some of the 
deficiencies, the backlogs that have been in place.
    I think, as I stated in my opening testimony, the money 
that we have requested for additional activities starts to 
address those challenges that we have to improve our processes. 
I think it is time that we took a fresh look at things, that we 
need to improve the way we do business, that process often gets 
in our way. We need to look at results, and that is the 
deliverables. We need to really see the effectiveness of our 
efforts.
    So I would commit to you that this Agency will be working 
hard to bring good business practices and good management 
practices to the business of energy activity on the public 
lands.
    Mr. Gibbons. Mr. Thompson?
    Mr. Thompson. Yes, in a very similar way, I would echo 
those comments with regard to trying to be more efficient and 
effective in responding to applications and more timely. There 
certainly has been a tremendous, and we call it ``analysis 
paralysis,'' problem, and I think trying to get on top of that 
is a top desire of the chief of the Forest Service, and 
certainly it is reflected in the Department and also in this 
administration's budget.
    It goes to not just the energy minerals program, it goes to 
the very essence of all of the programs that we do, trying to 
streamline processes to figure out ways of moving through 
tremendously complex analysis and consultations so that we can 
produce decisions in a timely way. That adds to efficiency. I 
think it also adds to confidence that people have and 
willingness to participate in programs. So that is one area 
that I think is a tremendous emphasis at this point in time.
    In addition to that, with regard to your question, we 
certainly are looking at emphasizing small-diameter biomass, 
underutilized material from other activities that go on with 
regard to fuels treatments and others, but there is a whole 
list of things that we would be doing, and many of those are 
identified in our 31 action items in our implementation plan. I 
think all of those are intended to implement the national 
energy policy.
    Mr. Gibbons. Thank you.
    Mr. Kind, any wrap-up questions?
    Mr. Kind. Yes, just real briefly.
    Ms. Clarke, you have been a real trooper today, and thank 
you for hanging in there with us.
    Ms. Clarke. Sure.
    Mr. Kind. One more question and more directed toward you. 
We had some hearings late last year and getting a lot of 
information in regards to some of the problems with coalbed 
methane production in Wyoming and the owners of the land, and 
some of the concerns that are raised in terms of air quality, 
water quality, consent and agreement issues and all of that.
    How much will your Bureau or Department be devoting 
resources or time or personnel in order to deal with what has 
turned out to be a real fire-bed issue out there for many of 
those individuals and landowners.
    Ms. Clarke. Coalbed methane is certainly a very important 
energy resource right now, and there is great demand for its 
availability and production.
    Clearly, it has created conflicts, and we are working with 
all parties to improve our conflict resolution policy right now 
to make sure that we are able to maximize recovery of those 
resources, while minimizing conflict and disruption to the 
various parties.
    We don't have all of the answers. We are looking to the 
operators and the owners to help provide us with insights and 
information that will help us to come up with a policy that 
serves the needs of all of those players in this important 
arena.
    Mr. Kind. I wish you well on that endeavor because, 
obviously, it is a very important issue. Like I said, we have 
looked into this and had a hearing with Ms. Cubin and some of 
her constituents last year. Hopefully, something can be worked 
out. It seems to be a growing problem right now, and we need to 
take some affirmative steps.
    Ms. Clarke. It is high on my radar screen. Thank you.
    Mr. Kind. Great. Thank you.
    Mr. Thompson, let me just conclude with you. I understand, 
in your written statement, you indicated that the $5-million 
increase in the energy and minerals program will be used mainly 
for coalbed methane operations in the Forest Service lands in 
the Rocky Mountain States, of which you bring considerable 
expertise to.
    My question is, for those NFS lands with reserve and 
outstanding mineral rights underlying the surface, can a 
mineral owner simply just begin drilling in that area? What is 
the process at the Forest Service in regards to how they go 
about drilling?
    Mr. Thompson. In particular for the coalbed methane?
    Mr. Kind. Right.
    Mr. Thompson. There is a process of first determining 
whether an area is available for leasing, and then once the 
lease request is made and a decision made that an area is 
available, then the process moves along. At the time that there 
is a request for lease, it is processed, and we work with the 
BLM very closely with that, and then at the appropriate time we 
do analysis, very site-specific analysis, it may be an 
Environmental Impact Statement or other environmental analysis, 
to make the decision as to what environmental protection is 
needed to actually do the lease. So it is a fairly involved 
process, and that is where we get into delays and a lot of time 
involved.
    With regard to coalbed methane, particularly in Wyoming, 
with the kind of sudden change and increase in that use, we 
have had to relook at our staff. We have hired new people to 
come in who are able then to do the analysis, provide the 
expertise that is needed and to train those folks to be able to 
do a quality job of analysis and also provide the expertise 
that is needed to carry out the work. It is very specialized 
work, and I think we have some of the, working with the BLM, 
some of the most highly qualified leasing people in the world 
trying to balance production versus the environment.
    Mr. Kind. Is the process any different if the Forest 
Service has fee-simple interest on the surface and subsurface 
rights to a particular land?
    Mr. Thompson. If I understood your question, it is, is the 
process any different if--
    Mr. Kind. If you are holding fee-simple interest in land.
    Mr. Thompson. I am trying to think. I would probably have 
to get back at you with the answer on that one. I think there 
are definitely some differences, but I couldn't describe it 
exactly to you right at this point in time.
    Mr. Kind. Well, thank you. Thank you both again for coming 
in and testifying, as well as your staff.
    Thank you, Mr. Gibbons. That is all I have.
    Mr. Gibbons. Thank you, Mr. Kind.
    And to our witnesses today, Director Clarke, Mr. Thompson, 
we want to thank you for your appearance today and your 
testimony. In the Committee's oversight duties, of course, we 
will be submitting written questions that we would ask that you 
follow up in response, in addition to the questions that were 
asked that you promised to provide testimony and information to 
the Committee as well.
    It has been a pleasure to chair the meeting and have both 
of you here. We know this is a new process for each of you, and 
we welcome you to the new process. I certainly hope that we 
have not treated you harshly. We did, as I say, appreciate the 
fact that you have arrived, Ms. Clarke, not feeling your best.
    Ms. Clarke. Thank you.
    Mr. Gibbons. With that, we are very thankful that you took 
your day and your time, as well, to be here. We look forward to 
working with you. It is always nice to have a warm, positive 
working relationship with the bureaucracies that we have our 
oversight duties to. Like I said, it is going to be a very 
interesting few months in the next few months as we move 
through the session.
    So, with that, we will ask if there are any other 
questions.
    [No response.]
    Mr. Gibbons. Seeing none, we will adjourn this hearing and 
call it a day.
    [Whereupon, at 11:25 a.m., the Subcommittee was adjourned.]

    [The Department of the Interior's response to questions 
submitted for the record follows:]

  Responses to Questions Submitted for the Record to Kathleen Clarke, 
  Director, Bureau of Land Management, U.S. Department of the Interior

                 Questions from Chairman Barbara Cubin
    1. When doing land planning, what attempt is made to identify areas 
which are favorable for minerals, oil and gas, geothermal energy, etc. 
During the scoping process do you consult with your own geologists, 
other federal agencies like the U.S. Geological Survey, state 
geological surveys, and industry to identify mineral and energy 
resource rich areas so that they can be considered in the planning 
process as a ``reasonably foreseeable development''? If not, why?
    During the scoping process, the Bureau of Land Management (BLM) 
works with a variety of Tribal, Federal, State, and local government 
agencies, trade groups, user groups, and local citizens to develop 
collaborative, inclusive, and effective land use plans. The BLM works 
very closely with the U.S. Geological Survey, state geological surveys, 
academia, mineral industry, special interest groups, and individuals to 
identify the potential for development of mineral and energy resources 
as well as a wide variety of other important resource values. The BLM 
works especially closely with the U.S. Geological Survey to obtain the 
latest resource assessment data on mineral and energy resource 
potential areas. This information is incorporated into the planning 
process through the development of reasonably foreseeable development 
scenarios. The BLM then involves the public in the preparation and 
review of planning documents which analyze the environmental impacts of 
alternative levels of resource use and protection.

    2. There has been a great deal of concern voiced by the oil and gas 
industry over delays in having drilling permits approved. A recent 
study by the Independent Petroleum Association of Mountain States using 
BLM data found that in fiscal year 2001 that it took BLM from 34 to a 
maximum of 197 days to approve a permit, with 84 days being the 
average. What is BLM doing to bring the approval times down to the 30 
days as mandated in the regulations?
    As part of the BLM's National Energy Plan, the Bureau established a 
working group to review and evaluate various reports and data 
concerning expediting the Applications for Permit to Drill (APD) 
process. The group has identified several specific recommendations, 
which the BLM will evaluated and presented to its stakeholders for 
comment at a Bureau-wide APD summit in Denver on March 20 and 21, 2002. 
Examples of areas under review are cultural clearances, National 
Environmental Policy Act (NEPA) processes, consistency of lease 
stipulations, and automation of the APD process.

    3. EPCA 604 inventory has been fast tracked, with reports on the 
five major Rocky Mountain basins that produce oil and gas to be 
completed this spring. How will the results of this study be used in 
the ``Time Sensitive Plans'' that are currently underway to update BLM 
management plans in energy producing field offices?
    As the EPCA inventories become available, the BLM will review those 
findings and incorporate the information as appropriate into the time 
sensitive land use plans. This review will include evaluations of land 
use area designations, lease stipulations, and use terms and conditions 
associated with development activities. In addition, consistent with 
the President's National Energy Policy, the information will be used to 
determine if alternatives are available to facilitate energy 
development while still providing necessary environmental protections. 
The EPCA findings will also be used in specific environmental documents 
which will establish a variety of multiple-use management goals as well 
as standards and objectives to guide management activities.

        As a follow up, is the budget adequate to complete all dated 
        plans in high priority energy areas?
    In 2001, the BLM embarked on a long-term project to update and 
revise the land use plans for the public lands. The BLM has predicted 
that completion of this comprehensive effort will take 10 years at a 
cost of roughly $50 million per year. The BLM identified the highest 
priority plans in 2000, which were started in 2001, and are expected to 
be completed in the next two to five years. The President's 2003 budget 
requests an additional $14 million for land use planning, which will 
bring the total planning budget to $47 million in 2003 to implement 
this planning initiative.
    In addition, in order to implement the President's National Energy 
Policy, the BLM has revisited land use planning priorities to ensure 
that the areas of greatest industry interest for oil and gas 
development are being addressed. The BLM is currently revising plans in 
the National Petroleum Reserve Alaska; San Juan, Powder River, Uinta, 
and Piceance basins; and in central Wyoming. These represent the most 
critical of the energy-related land use plans for the BLM.

    4. As you know, this Subcommittee strongly supports the Bureau of 
Land Management and the Forest Service budgets that provide adequate 
resources to ensure good and timely permitting decisions and processes. 
But as we consider future needs, we want to be sure that the agencies 
are spending current appropriations wisely. Along those lines, we noted 
that a recent recommendation filed with the White House Energy 
Streamlining Task Force dealt with the processing of applications for 
permits to drill (APDs) and other BLM permits. It called for a quick 
benchmarking study to compare field offices permitting effectiveness, 
using available data. The recommendation then outlined an approach to 
find out why some offices appeared to do better than others.
        a. Finally, it called for a ``best practices'' approach to 
        bringing all offices to the level of performance of the best 
        ones. Is such a benchmarking and best practices program being 
        implemented?
    Developing a best practices approach for providing consistency 
among the various BLM offices regarding APD processing is being 
considered by the APD working group (as mentioned in the response to 
question 3). The BLM evaluated and presented this approach to industry 
for comment at a Bureau-wide APD summit in Denver on March 20 and 21.
        b. If so, what measures of performance are being used? (APD 
        permitting time? Number of permits issued per dollar spent on 
        processing? Number of permits per employee assigned to process 
        them?)
    Currently, the BLM regulations have a 30-day performance goal for 
the processing of APDs. An automated application process is also being 
considered in an attempt to resolve the discrepancies between the 
submitted applications and the application requirements in order to 
ensure that industry has submitted a complete application.

    5. I am glad to see that the Powder River Basin Oil and Gas Draft 
EIS has been completed and that the Final is expected in August. What 
is current backlog of CBM APD's and how long will it be before the 
backlog is eliminated?
    The BLM is working diligently to complete the Powder River Basin 
(PRB) oil and gas final EIS. The number of pending APDs in the Powder 
River Basin (PRB) is approximately 2,500. Several hundred of the 
applications, however, have been returned to applicants due to 
incomplete data, or are returned when the operator notifies the BLM of 
a change in their plans to drill. The BLM receives 1,000 to 1,500 new 
applications for development in the PRB each year. The BLM is currently 
processing and approving of about 1,300 APDs per year. In addition, 
completion of the EIS will help to expand the number of APDs that the 
BLM can process, a total that is currently limited by existing NEPA 
documents.

    6. Budget, aside, BLM Wyoming recently had a competitive coal lease 
sale, which brought in a bonus bid of $379.5 million dollars. I also 
understand that there was more than one bidder and that there is a 
potential conflict between the coal and coalbed methane developers. The 
President's budget states that one of the Administration's high 
priority energy tasks is to resolve the conflicts that arise when the 
government leases coal rights to one producer and coalbed methane 
rights to another producer in the same land.
        a. Will the Administration's proposed resolution allow coal 
        operators to purchase the conflicting coalbed methane rights at 
        fair market value?
        b. If not, what mechanism will the Administration use to 
        optimize mineral production from federal lands without giving 
        the owner of one mineral lessee undue leverage over another 
        mineral lessee?
    The BLM is in the process of clarifying and strengthening its 
existing conflict resolution policy. Various potential recommendations 
and approaches are being considered to resolve the conflict. The goal 
of the BLM's existing policy is to ensure conservation of the coal 
resources while optimizing coalbed methane recovery, and to optimize 
the return to the public while protecting public safety and the 
environment. The BLM is working to achieve this policy goal either by 
facilitating an agreement between the lessees, or by exercising 
authorities under the terms of the lease, the Mineral Leasing Act, or 
the implementing regulations, including those concerning conservation 
of the natural resources.

    7. What is the status of coal leasing activities in BLM. That is, 
are there any pending coal lease applications, and if so what is being 
done to expedite and streamline the process?
    There currently are 317 coal leases on Federal lands, of which 127 
are producing. In fiscal year 2001, production from Federal lands 
exceeded 393,500,000 tons. There are currently 17 Federal coal lease 
applications pending nationwide. The BLM is taking several actions to 
expedite and streamline the processing of pending coal lease 
applications. In Wyoming, for example, the BLM is combining the NEPA 
documentation for four pending lease applications into one EIS, 
eliminating the need for separate NEPA documents. The BLM has also 
hired additional staff in Wyoming to support expediting pending lease 
applications. In addition, as part of the BLM's responsibility under 
the President's National Energy Policy, the Bureau is examining the 
current leasing process for opportunities to improve the application 
process.

    8. I understand that BLM Montana requested $800,000 for an EIS for 
the Blackleaf area in western Montana for proposed oil and gas 
drilling, which was turned down. Wasn't there an EIS prepared in the 
mid 1990's for that same area? Since an EIS had already been completed 
why is the cost to update an existing EIS so high?
    The final EIS for the Blackleaf area was completed in June 1992. 
However, a Record of Decision (ROD) was not issued. At the time there 
were no pending development proposals and the intent was to prepare a 
ROD following receipt of the first drilling proposal for the Blackleaf 
area. The supporting data and analysis contained in the EIS were 
assembled prior to the 1992 issue date, making it more than 10 years 
old. Since then, additional data and analysis needs have been 
identified including Native American consultation, potential historic 
properties data, cutthroat trout data, threatened Canada lynx data, and 
threatened grizzly bear data along with an updated socioeconomic 
analysis, air quality analysis, and biological assessment.
    In 2001, three Notices of Staking (NOS) for natural gas wells were 
filed for the Blackleaf area. Two of the locations were addressed in 
the 1992 EIS as possible exploration wells, not production wells with 
associated road and pipeline construction as now proposed. Also, some 
of the alternatives in the 1992 final Blackleaf EIS do not address the 
proposed well locations and therefore do not adequately address the new 
proposed development activity. Because the current proposal differs 
from any of the alternatives described in the 1992 EIS, and because of 
new data, our intent is to prepare a new EIS addressing the proposed 
production wells and field development. Information from the 1992 final 
Blackleaf EIS would be updated with new information, new viable 
alternatives, and new analysis. The new EIS would address the three 
proposed wells with a level of specificity for a decision on the 
drilling proposals.
    The BLM is outlining a strategy and schedule to update the EIS and 
complete the Record of Decision. We expect this strategy to be 
completed by mid-year, and it will form the basis for determining the 
necessary funding for the project.

    9. What is the status of the oil and gas leases within the Missouri 
River Breaks National Monument? What is BLM doing with the 9 drilling 
applications that are pending approval?
    The Presidential Proclamation establishing the Upper Missouri River 
Breaks National Monument protects valid existing rights including pre-
existing oil and gas leases. Six of the nine drilling applications are 
within the monument on leases which predate the establishment of that 
monument. The other three are outside the monument boundary and 
therefore not affected by the monument proclamation. The BLM is 
currently reviewing public comments on an Environmental Assessment (EA) 
that analyzes these applications. The comment review should be 
completed by April. In addition, it should be noted that the area 
proposed for drilling is an area of historic gas development with 
hundreds of wells drilled since the 1950s.

    10. There has been a lot of press and controversy surrounding 
Anschutz Petroleum's proposed exploratory well in Weatherman Draw. It 
seems that several Native American tribes object to the proposed well 
location because the area contains sacred sites and have appealed the 
drilling permit approval to the Interior Board of Land Appeals. What is 
the status of this controversy?
    The BLM approved Anschutz's application to drill an exploratory 
well in the area on February 5, 2001. Several Native American tribes 
have identified the area as containing sacred sites, and the approval 
is under appeal with the Interior Board of Land Appeals. The company 
has voluntarily postponed drilling until at least June 1, 2002, while 
alternative solutions are pursued. The company and the appellants have 
indicated a desire to find a mutually agreeable resolution to this 
issue including potential relinquishment of the two leases. The BLM and 
Anschutz have entered into a Memorandum of Understanding to have the 
leases appraised by an independent appraisal company. Information from 
the appraisal will be included in any analysis regarding potential 
compensation for termination of the leases.

    11. Oil and gas exploration and development on Alaska's North 
Slope, especially opening up the 1002 area of ANWR, is a very 
controversial issue. It has been reported that exploratory drilling in 
the National Petroleum Reserve Alaska resulted in a major discovery of 
oil. What is BLM doing to promote oil and gas development in the 
National Petroleum Reserve Alaska to decrease our dependence on foreign 
oil?
    The President's National Energy Policy identifies oil and gas 
development on the North Slope of Alaska as a priority. As part of the 
BLM's effort to implement that policy, the Bureau is undertaking 
various actions. The BLM has announced plans to hold a second lease 
sale in the Northeast sector of the National Petroleum Reserve-Alaska 
(NPR-A) on June 3, 2002. This will be a re-offering of those lease 
tracts which did not receive bids in the first lease sale. The BLM also 
has initiated a planning effort for the Northwest sector of NPk-A to 
identify those lands to be offered for oil and gas leasing in a lease 
sale to be conducted in 2004. Once the Northwest planning process is 
complete, the Southern NPR-A area planning effort will be initiated. 
The BLM also is working closely with industry to provide for the timely 
processing of applications for permits to drill. Finally, the BLM is 
continuing its efforts to ensure the best technologies and practices 
are utilized to develop and produce oil and gas on the North Slope in 
an efficient and environmentally-sound manner.

    12. This Subcommittee sponsored enacted legislation, HR 1913, that 
directs the. Secretary of Interior to acquire the private mineral 
rights of some 67,000 acres within the Acoma Pueblo in New Mexico 
within three years. What is the status of acquiring those mineral 
interests?
    The recently enacted legislation (PL 107-138) requires the private 
mineral interests within the Acoma Pueblo be acquired by either land 
exchange, direct purchase, or through the use of bidding credits in an 
amount equal to the value of the mineral estate. The BLM is working 
with the Department and BIA to determine which acquisition option 
allowed under the law should be pursued in order to comply with the 
law's three-year deadline. As required by the law, appraisal of the 
property will be initiated and completed by the Department, within the 
six month time-frame required by the legislation, to determine the 
value of the mineral estate for acquisition purposes.

    13. There was also controversy surrounding the Otero Mesa Oil and 
Gas EIS in southern New Mexico, an area that has had a major natural 
gas discovery by Yates Petroleum at their Bennett Ranch Unit. It seems 
that the majority of the lands available for leasing will be available 
with ``no surface occupancy'' stipulation. If this is the case, it 
would adversely impact the development of natural gas. What is BLM 
doing to assure that there is access to develop this very important 
resource and have they looked to any ``out of the box'' creative 
solutions?
    For the Otero Mesa Oil and Gas Environmental Impact Statement, the 
BLM is looking at a new and innovative alternative to the ``no surface 
occupancy'' stipulation originally proposed in the Resource Management 
Plan amendment for the area. The new alternative, if adopted, will 
permit the entire area to be open to leasing with a limit on the amount 
of unreclaimed surface disturbance allowed at any one time. The lessee 
or operator would have access to the entire lease, but could not have 
more than five percent of the leasehold disturbed by exploration 
activities, such as roads, well pads, and pipelines. This alternative 
would provide the operator with flexibility in developing the lease, 
but would set specific limits on surface disturbance. As areas are 
rehabilitated and reclaimed, these areas would no longer be counted in 
the five percent disturbance limitation.

    14. What has BLM accomplished in streamlining the process for the 
development of renewable energy resources on public lands since the 
November 2001 National Conference on Renewable Energy that was hosted 
by Secretary Norton?
    Consistent with the President's National Energy Policy, the 
Department and the BLM are working to expand renewable energy 
development opportunities on public lands. The Department's November 
National Conference on Renewable Energy was a good first step in an 
ongoing effort to work with industry in a collaborative manner to 
reduce delays and bottlenecks in processing authorizations for 
renewable energy facilities on the public lands. The BLM is working 
closely with the Department to develop a Renewable Energy Action Plan 
in response to the comments and recommendations from the conference. In 
addition, the Department and the BLM hosted a second, follow-up meeting 
in California in February 2002 to clarify and discuss specific actions 
and recommendations that may be implemented by the Department and the 
BLM. As a follow-up to the meetings, the BLM is continuing to evaluate 
recommendations on how the BLM can best develop renewable resources on 
the public lands. The 2003 budget includes an increase of $750,000 to 
expand the development of renewable energy sources.

    15. How many geothermal lease sales does BLM plan to hold in fiscal 
year 2003?
    The BLM does not currently have a nation-wide geothermal leasing 
schedule. As part of the BLM's responsibilities under the President's 
National Energy Policy, it has initiated the development of state 
specific geothermal action plans which will expedite the leasing 
process and determine the appropriate need for geothermal lease sales.

    16. I understand that there was a recent Interior Board of Land 
Appeals that affirmed an appeal on the adequacy of the Medicine Lake 
Geothermal EIS. What are BLM's plans in light of the decision, will you 
be revisiting your previous decision?
    To clarify the decision, on February 7, 2002, the Interior Board of 
Land Appeals (IBLA) (IBLA 2000-94) dismissed the appeal. Specifically, 
the IBLA affirmed the BLM's ROD for the Calpine's Plan of Operations 
for the Fourmile Hill Geothermal Development Project. As part of the 
ROD, the BLM incorporated a Memorandum of Agreement (MOA) with the US 
Forest Service, State Historic Preservation Officer and Advisory 
Council on Historic Preservation and adopted various mitigation 
measures set forth in the final EIS to minimize the potential impacts 
of the proposed action. The BLM is working with all parties, including 
industry and the tribes, to clarify the provisions of the MOA. In 
addition, the BLM will prepare the necessary environmental 
documentation and development of specific mitigation measures 
associated with the processing of the geothermal APD prior to the 
approval of any drilling activity.

    17. The fiscal year 2003 budget assumes that Congress will 
authorize a lease sale in ANWR in 2004 that would raise $2.4 billion in 
bonus bids. Last year, the Administration proposed that ANWR be opened 
to leasing and used the same estimate to justify its plan. Given the 
decrease in oil and gas prices over the past year or so, which is 
reflected in the Department's onshore and offshore oil and gas 
estimates, why would you stick with the same estimate for bonus bids on 
a 2004 ANWR lease sale?
    The BLM's bonus bid estimates are dependant on a number of factors, 
including geology, reservoir engineering, potential for oil, economics, 
and the bidding results from previous lease sales. Since many of these 
factors are not always certain, the BLM uses its professional judgment 
to determine them, and reviews these factors to decide if significant 
change$ warrant a new assessment of the bonus bid estimates. In 
particular, oil and gas price forecasts used in this process are not 
tied to annual fluctuations, but rather to long-term projections. Long-
term price projections and data related to other factors have not 
varied greatly; therefore, the BLM believes there is not currently a 
need to revise the estimates. Furthermore, industry's bidding history 
for similar tracts suggest that these estimates are within the range of 
what should be expected for any ANWR lease sale.

    18. Last year as part of the House-passed energy bill, the 
Congressional Budget Office estimated that leasing ANWR would generate 
gross receipts totaling about $3.3 billion in bonus bids on two sales 
to be held between 2004 and 2006. Those receipts would be largely 
offset by payments to Alaska totaling $2.97 billion over the same 
period. As you know, under the terms of the Alaska Statehood Act, the 
State is entitled to 90 percent of the leasing revenues that would be 
generated if ANWR were leased. Therefore, CBO estimated that net 
receipts to the federal government would total only $330 million over 
the next 10 years.
    See question 19.

    19. Your budget assumes that the split would be 50-50 even though 
that is not current law and the State has said that it would sue Uncle 
Sam if Congress unilaterally amended the statehood act. How then, can 
the Administration justify its $1.2 billion split?
    Congress has the authority to set a specific distribution for oil 
and gas revenues from the ANWR. Congress provided a 50-50 split when it 
authorized the leasing of the NPR-A. This authority was upheld in a 
1996 U.S. Court of Claims decision in which the Court stated that 
Alaska's statehood compact did not bind the Federal Government to a 90-
10 revenue split and that Congress could lower the revenue split 
without breaking the statehood compact. The gross receipts projection 
is based on the assumption that Congress would designate a 50-50 split 
of revenue from ANWR in legislation authorizing oil and gas leasing in 
the 1002 area of ANWR.

    20. CBO used the Energy Information Administration's price forecast 
for 2020 of an average price of $20 per barrel (in 2000 dollars) during 
the 2012-2040 period to prepare its $3.3 billion estimate for bonus 
bids from two ANWR lease sales in fiscal year 2004 through 2006. CBO 
also used DOI's estimates of economically recoverable oil and gas and 
concluded that 2.4 billion barrels would be produced when the price was 
set at $20 per barrel. That is the same figure the Clinton 
Administration used in testimony before our committee in the year 2000 
as well.
        a. What estimate of economically recoverable oil and gas did 
        OMB and DOI use to support the $2.4 billion estimate for one 
        lease sale in 2004 in the fiscal year 2003 budget?
    The estimated $2.4 billion in bonus bids for one lease sale in 2004 
was based on the assumption that Congress would authorize the opening 
of the 1002 area early in 2002 and the entire 1002 area would be 
offered in the first sale. The BLM utilized its professional judgment 
concerning geological, engineering, economic and historical evidence of 
industry's bidding on such prospects. The BLM did not calculate a 
single economically recoverable oil and gas estimate for the entire 
sale area. Rather, the BLM performed a prospect-by-prospect evaluation.

    21. In deciding whether to compete for a potential lease in ANWR, 
companies would look at the cost of the leases-bonus bids, rentals and 
royalties-in totaling up what the complete capital cost would be to 
develop that lease. It is generally understood that it would more 
expensive to operate in Alaska so oil companies would need to earn a 
higher rate of return to make it worth their while to operate there. In 
light of such economic realities, BP has already scaled back its 
operations in Alaska.
        Given the enormous up-front infrastructure costs to find and 
        deliver ANWR oil to Prudhoe Bay, along with the lower world 
        price of oil, on what factual basis can the Administration 
        conclude that industry remains sufficiently eager to pay $2.4 
        billion in bonus bids for the right to explore for oil and gas 
        in ANWR?
    The BLM's bonus bid estimates are dependant on a number of factors, 
including geology, reservoir engineering, potential for oil, economics, 
and the bidding results from previous lease sales. Since many of these 
factors are not always certain, the BLM uses its professional judgment 
to determine them, and reviews these factors to decide if significant 
changes warrant a new assessment of the bonus bid estimates. In 
particular, oil and gas price forecasts used in this process are not 
tied to annual fluctuations, but rather to long-term projections. Long-
term price projections and data related to other factors have not 
varied greatly; therefore, the BLM believes there is not currently a 
need to revise the estimates. Furthermore, industry's bidding history 
for similar tracts suggest that these estimates are within the range of 
what should be expected for any ANWR lease sale.

    22. If Congress authorized a 2004 lease sale in ANWR, and if such a 
lease sale was not enjoined by the Courts, and the sale actually took 
place in 2004 - when would you expect oil production to begin? At the 
earliest?
    Given the potential size of discoveries there, BLM anticipates that 
production could occur as soon as 5 to 7 years after the first 
discovery. Of course, the ultimate timing of production could also 
depend on things like the type of environmental stipulations that 
Congress places in the legislation and the location of producing wells 
to existing infrastructure.

    23. The fiscal year 2003 budget proposes an increase in funding for 
geothermal activity of $350,000 - essentially doubling the geothermal 
account to a total of $700,000. While I am supportive of this 
enhancement, it seems a paltry sum in comparison to the $85 million 
total requested for the oil and gas program. Clearly, the 
Administration is predisposed toward oil and gas to meet the Nation's 
energy needs. Even so, a greater emphasis on alternative fuels is 
needed if we are to achieve energy security.
        How can the Administration justify such a small expenditure for 
        geothermal leasing when it has such tremendous potential to 
        reduce our dependence on foreign oil?
    The President's Budget reflects an advanced approach to addressing 
the Nation's energy needs that is consistent with current energy 
demands. BLM is placing additional emphasis on enhancing opportunities 
to develop geothermal resources through a Bureau-wide renewable energy 
strategy. The BLM's increased geothermal budget for fiscal year 2002 
has already resulted in issuing over 50 leases and holding a 
competitive geothermal lease sale. Based on our experience in 2002, the 
BLM is requesting additional funding in fiscal year 2003 to expand the 
opportunities for geothermal power development. This additional 
geothermal funding is necessary to help us resolve our leasing and 
permitting backlog, which will expedite the development of geothermal 
resources.

    24. The President's fiscal year 2003 [budget] proposes to ``move'' 
the geothermal program into the oil and gas program within BLM. What 
assurances can you provide that this will not result in a diminution of 
geothermal activity on public lands?
    Development of geothermal resources on the public lands is an 
integral component of the BLM's responsibility under the President's 
National Energy Policy. The administrative transfer of the geothermal 
program into the fluid minerals program within the BLM and subsequent 
transfer of its accounting function is intended to simplify and make 
more efficient the management of the geothermal program. The funding 
and management transfer in no way will result in the diminishment of 
geothermal activity on public land. Overall, it will provide a more 
direct oversight on how funding for the program will be managed.

    25. What steps are BLM and the Forest Service taking to assure that 
oil and gas. and coal operations on public and forest lands are secure 
from terrorist attacks?
    The BLM is working with other Federal agencies to provide adequate 
security to protect the Federal lands, resources and associated 
facilities. All agency personnel, whether on or off duty, are requested 
to report any unusual activity on the Federal lands to law enforcement 
personnel. In addition, the oil and gas program's on-the-ground 
Petroleum Engineering Technicians are being trained in security matters 
and techniques and are becoming an important element in the BLM's 
security force on the public lands. The BLM- is also working with other 
agencies and states to ensure coordination of efforts. Specific 
delegation of authorities and communication methods have been 
established to ensure that appropriate law enforcement personnel 
respond to any incidents. In addition, the Department has strengthened 
its capability to receive and transmit intelligence information, which 
assists in bureau readiness with the creation of a Watch Office.

    26. Coalbed methane development in Wyoming has generated not only 
natural gas but a fair amount of local concern as well. A number of 
citizens who either own or use the surface but not the natural gas, 
such as ranchers, have contacted this Committee to take issue with the 
conduct of certain CBM producers. They are seeking a variety of 
protections, including a requirement that CBM operators secure the 
surface owner's consent prior to drilling. As it stands now, we're told 
that some surface owners discover that a CBM operation is going into 
operation next door when the rigs show up. This does not seem 
reasonable, does it? What steps is BLM taking to protect surface owners 
affected by CBM development?
    The BLM has specific regulations and procedures concerning CBM 
development on split estate lands to protect the rights of surface 
owners. The BLM currently requests that operators, prior to onsite 
inspections, contact surface owners and notify them of their proposed 
activity. In particular, the BLM asks operators to invite surface 
owners to on-site inspections. Operators must incorporate the landowner 
concerns or desires for mitigation, existing road use, and abandonment 
into the Surface Use Plan (SUP) of the APD. When surface owners 
participate in the pre-drill onsite inspection, a BLM representative 
discusses the concerns and mitigation with the surface owners. Another 
important requirement is for the operator to submit as part of the SUP 
one of the following - a copy of the signed surface owner agreement 
between the operator and the surface owner; a certification by the 
operator that an agreement was reached with the surface owner; or a 
certification of compliance with Federal regulations (43 CFR 3814) with 
respect to bonding requirements for use of the surface. No surface 
disturbance is allowed by the BLM until the BLM approves the APD and 
there is compliance with these requirements. Additionally, the BLM 
periodically inspects and monitors the drilling and production 
operations to ensure compliance with all permit requirements. Upon 
completion of operations, BLM officials also visit the site to ensure 
proper abandonment and reclamation.

    27. Please provide the Subcommittee with a table showing for each 
fiscal year the actual funds spent on Mining Law Administration from 
fiscal year 1991 through fiscal year 2002 and the actual revenue 
collected by the claim maintenance fee since its inception through 
fiscal year 2002.
    Following is a list of the funds appropriated for Mining Law 
Administration since 1991; the funds expended on the Mining Law 
Administration program by the BLM since 1993 (the first year of its 
individual budget tracking by the BLM); and a list of the funds 
collected from the mining claim maintenance fee by the BLM since 1993 
(the first year of its collection).
[GRAPHIC] [TIFF OMITTED] T7680.001

                  Questions from Congressman Ron Kind:
    1. BLM is asking for $10.2 million to speed up the handling of oil, 
gas and coal permits on public lands in Wyoming, New Mexico, Montana, 
Utah and Colorado, and to remove barriers to energy production. If this 
money is appropriated, what will be done to ensure environmental 
protection in the face of ``speeding'' production up?
    A critical component of the President's National Energy Policy is 
to ensure the protection of the environment while expanding domestic 
energy production. The BLM is committed to achieving this goal. 
Integral to the processing of these oil, gas, and coal permits is the 
BLM's preparation of the necessary environmental documentation and 
development of specific mitigation measures to reduce the impacts of 
exploration and development activities. With the requested funding for 
permit processing, the BLM will be able to complete more permits and 
associated environmental documentation, while maintaining sound 
environmental standards.
        a. What protection measures have been or will be implemented to 
        protect Arches and Canyonlands National Parks in your agency's 
        search for oil?
    The BLM closely coordinates with all land management agencies, 
including the National Park Service (NPS), when proposed oil and gas 
development activities may impact adjacent Federal lands. All NPS 
concerns and issues are considered during the land use planning process 
and have resulted in removing parcels from lease consideration. When a 
lease is issued, the BLM continues to coordinate with the appropriate 
NPS unit when reviewing APDs and preparing NEPA documentation. The NPS 
concerns are again taken into consideration and specific mitigation 
measures are developed to reduce potential development impacts, such as 
low-profile equipment, strategic location of facilities, coloration and 
orientation of equipment, shielded lighting, and engine and compressor 
mufflers.

    2. BLM has requested another $14 million to ``speed up'' work on 
amending outdated land use plans.
        a. Can you provide an overview of the status of planning at 
        this point? Can you also break down for me the amount of 
        planning funding being allocated within each of the broad 
        categories: oil & gas, mining, grazing, conservation, 
        recreation?
    Increased appropriations in 2001 and 2002 have allowed the BLM to 
make progress in updating existing plans and begin to develop 27 plans 
for newly designated conservation areas. The BLM has initiated a total 
of 81 new plans, revisions, and priority plan amendments. These 
projects focus on mandates from Congress, the Administration, and the 
courts, as well as high-priority national issues such as energy 
development and newly-designated conservation areas. Each plan 
establishes management direction for roughly one to two million acres 
of public land. They are developed with extensive public involvement, 
take an average of three years to compete, and are prepared in 
conjunction with an analysis of environmental impacts as required by 
NEPA. These planning efforts are done in close communication, 
cooperation, and consultation with local citizens, stakeholders, 
county, State, and tribal agencies.
    In 2001, the Bureau completed the El Malpais National Conservation 
Area Resource Management Plan; amended 33 plans; and initiated the 
development of 29 plans. In 2002, the Bureau expects to complete seven 
land use plans; amend 52 plans; and initiate the development of 18 new 
plans. These projects for 2002 include 21 expedited plans that will 
address critical issues focusing on energy development and the newly-
designated conservation areas. These high priority plans are all 
currently on schedule for planned completion in either 2002, 2003 or 
2004. With increased funds requested in the President's 2003 budget, 
the BLM proposes to complete eight plans and amend 51 existing plans. 
(See the attached appendix table that displays the complete funding 
levels and status of the BLM land use plans by state.)
    It is not possible to break down the overall planning funding being 
allocated within each of the broad resource management categories. 
However, of the plans in progress which will be funded in the 
President's proposed fiscal year 2003 budget, approximately one third 
involve National Landscape Conservation System (NLCS) units; 
approximately one third are considered to have energy development as a 
major issue; and approximately one third are located outside the NLCS 
and major energy development areas. Of the $14 million requested 
program increase, approximately $3 million and $7 million, 
respectively, is allocated to plans being developed or amended in the 
NLCS and energy-development areas.
        b. BLM acknowledges that many of these land use plans - 
        Resource Management Plans (RMP) - are out of date and do not 
        account for heightened scenarios of oil and gas development, 
        not to mention coal bed methane (CBM) development. If this is 
        true, then why is BLM leasing federal lands for oil and gas 
        during the interim? Shouldn't leasing for oil and gas, and 
        particularly CBM, await the final decisions of the amended 
        RMPs?
    The BLM is in the process of evaluating and updating its land use 
planning base. Prior to completing new plans, the BLM will use existing 
plans to lease any oil and gas resources. Lands that have been 
identified as open for leasing under an existing Resource Management 
Plan/Environmental Impact Statement (RMP/EIS) may continue to be leased 
during a plan revision or amendment process unless development impacts 
exceed the scope of the original EIS reasonably foreseeable development 
scenario. In such cases, the BLM would likely defer a particular RMP 
leasing decision or complete additional environmental review prior to 
leasing.
    While an RMP is being amended or revised, the BLM will continue to 
process site specific permits, sundry notices, and related 
authorizations on existing leases while ensuring compliance with NEPA 
and other laws, regulations, and policies. Prior to authorizing an APD 
on an existing lease, a thorough environmental review is conducted in 
compliance with NEPA. This review will consider the effects of 
approving the APD, including the cumulative effects on other resources. 
The BLM will then place conditions on the approval of the APD, as 
necessary, to protect other resources.
        c. Is the purpose of ``speeding up'' RMP amendments throughout 
        the west to accommodate the interests of the oil and gas 
        industry? Shouldn't the true focus be on taking the necessary 
        time to develop land use plans that properly balance all 
        natural resources, listen to the concerns of the public, and to 
        the best extent possible, develop mitigation measures and lease 
        stipulations to protect other multiple uses?
    The BLM is using planning funds to expedite 21 land use plans and 
plan amendments critical to the interests of the Nation. Each plan and 
amendment considers a broad array of resource issues and multiple uses. 
Nearly half of these expedited plans (10) focus on units of the 
National Landscape Conservation System, which are driven by 
legislatively- or administratively-required completion dates or by 
litigation. Oil and gas development is the major planning issue for 
seven expedited multiple-use plans and amendments. In three other 
plans, environmental protection issues and energy development issues 
are approximately equal in priority. The remaining plan was expedited 
because of significant population growth, and its effects on the state 
and local communities warranted action to protect resources and manage 
changing uses on the public lands.
    Even though the BLM is expediting these 21 plans and amendments 
while it works on several dozen others, the BLM is also redesigning the 
planning process to engage more actively the public's participation. 
The BLM is more committed than ever to a truly collaborative planning 
process. We believe the public will realize an advantage in an 
expedited process. In the past, it was difficult for the public to 
maintain their interest in a process that took four or five, years or 
longer to complete. In the more streamlined planning process, the BLM 
works more closely with the public, seeking their active participation 
in a more collaborative forum, thereby balancing all affected 
interests.

    3. How does BLM intend to balance its multiple-use mission to 
protect the rich diversity of its natural resources such as those found 
in Jack Morrow Hills?
    As with all major plan amendments and new Resource Management 
Plans, the BLM is undertaking an extensive planning and environmental 
impact statement (EIS) process in the Jack Morrow Hills area that 
includes the consideration of all interests and resources. The Jack 
Morrow Hills plan amendment to the Green River RMP will assess all 
issues, including critical big game habitat, wilderness study areas, 
recreation, scenic quality, and soil stability along with the 
possibilities for energy development. Public comments on this plan 
focused on collaboratively building land use planning decisions. It is 
anticipated that the final Record of Decision for this plan amendment 
will be issued in November 2002.

    4. How much of the $14 million is allocated to the minerals 
extraction portion of RMPs? Is there an appropriate balance of this 
requested money that will go to other BLM programs such as wildlife, 
threatened and endangered species protection, watershed improvement, 
recreational use, and protecting historical and cultural resources?
    Resource Management Plans are developed to guide the management of 
many resources, including minerals, energy, soil, water, air, cultural, 
wilderness, forage production, and others. (Also see response to 
question 2a.) It is not possible to break down the planning funding 
being allocated within each of these resource management categories. 
Even a plan amendment with a primary issue such as ``energy 
development'' must consider the development of energy resources in the 
context of the use and protection of all other important resources 
within the area.

    5. Can you assure this committee that all areas protected within 
the National Landscape Conservation System will be avoided?
    Energy development within units of the National Landscape 
Conservation System (NLCS) will be consistent with the provisions 
establishing each unit. For example, many of the National Conservation 
Areas (NCAs) established by Congress withdrew these areas from mining 
and mineral development, while respecting valid existing rights. The 
BLM will, of course, follow those Congressional proscriptions. 
Likewise, the Presidential Proclamations that established a number of 
BLM-managed national monuments withdrew those areas from mining and 
mineral development subject to valid existing rights. However, in the 
case of the Canyons of the Ancients National Monument in Colorado, the 
Presidential Proclamation establishing the monument specifically allows 
for new leasing within the Monument in particular circumstances. If 
development is authorized, the activities will be closely monitored to 
ensure that all mitigation measures are implemented to protect the 
environment, including reclamation after the development activity is 
completed.

    6. In a recent New York Times article, one of your field 
supervisors was quoted in a memo as saying, ``Utah needs to ensure that 
existing staff understand that when an oil and gas lease parcel or when 
an application for permission to drill comes in the door, that this 
work is their No. 1 priority.''
        a. Can you tell me where in FLPMA does it state that managers 
        should overlook the agency's other mandates in the name of 
        energy development?
    FLPMA directs the BLM to manage the public lands and natural 
resources using the principle of multiple use, and mandates that no one 
resource or use of the public lands should be primary. All BLM managers 
are required to adhere to the principles of FLPMA when making their 
land use management decisions.
        b. Can you share with this committee your plans to clearly 
        direct state and field managers to provide the necessary 
        balance of uses - outlining an appropriate balance between 
        conservation; recreation and extractive uses?
    As noted above, FLPMA clearly establishes the direction for BLM - 
including state and field managers - to provide a balance under its 
multiple-use mandate. This is inherent in the BLM's land use planning 
process, which provides for extensive public input to ensure this 
balance is achieved. The provisions of FLPMA are set forth in the 
Bureau's regulations, manuals, and handbooks, and they will continue to 
serve as the guidance for our state and field managers to utilize when 
making land use decisions.

    7. BLM just released a draft EIS for 51,000 coal bed methane wells 
in Wyoming's Powder River Basin.
        a. The plan analyzes no new or developing technologies designed 
        to lessen impacts from the billions of gallons of produced 
        water that will be dumped onto the ground. How does this square 
        with this Administration's promise to the American public to 
        lessen the footprint of increased production of public 
        resources by using the latest and best technologies?
    Several water handling methods were analyzed in the draft EIS. All 
of the methods analyzed meet the requirements of the State of Wyoming 
water quality standards. The methods include surface discharge, passive 
and active treatment, infiltration, containment, land application and 
injection. Based on comments from the initial public scoping process 
and during the development of the alternatives, it was determined that 
these water handling methods fully complied with the NBPA requirements 
of being reasonably foreseeable, as well as being both technically and 
economically feasible. The surface disposal alternative was identified 
as preferred because it would result in fewer surface disturbance 
impacts.
        b. How does the preferred alternative's call for dumping 90% of 
        this water onto the ground untreated square with BLM Onshore 
        Order No. 7's mandate that the primary method for oil and gas 
        produced water is through injection back into the aquifers?
    BLM's Onshore Order No. 7 does not solely mandate injection of 
produced water. The Order promotes injection of produced water; 
however, it allows for other methods of disposal, including discharging 
into pits, and other acceptable methods, such as surface discharge via 
a National Pollution Discharge and Elimination System permit. In the 
preferred alternative of the draft Powder River Basin EIS, the method 
of water handling varies by watershed, with approximately 50% being 
discharged at the surface for beneficial use.
        c. Why were the recommendations of a Citizen's proposal 
        submitted to BLM not analyzed in the EIS? The citizen's 
        proposal added another alternative to the mere two BLM analyzed 
        in the DEIS - both of which allowed for the full amount of 
        wells asked for by industry and neither of which seriously 
        considered mitigation measures to reduce impacts. With CBM 
        development exploding all over the West, is this the type of 
        analysis we should expect from BLM in the future?
    Regarding the Powder River Basin draft EIS, all reasonable 
alternatives submitted during the scoping period, which began in June 
2000, was reopened in November 2000, and closed in January 2001, were 
considered. The Citizen's proposal was submitted to the BLM for 
consideration on October 9, 2001, after the closing date. By October, 
the analysis of the alternatives for the draft EIS had already been 
completed, and the preliminary draft was provided to cooperating 
agencies for review prior to completion of the draft EIS. At that time, 
the Citizen's proposal was reviewed and it was noted that it contained 
mostly mitigation measures which were already incorporated into the 
draft EIS. However, there is another opportunity for them to provide 
additional issues or concerns on the draft EIS during the comment 
period which closes on April 18, 2002. All comments received on the 
draft EIS will be considered, as appropriate, in the preparation of the 
final EIS.
    The BLM is committed to meaningful collaboration with the public, 
local and national interest groups, state governments, and industry. 
The BLM will continue to make concerted efforts to ensure that the 
public has an opportunity to participate in all land use decision 
processes.
[GRAPHIC] [TIFF OMITTED] T7680.002

[GRAPHIC] [TIFF OMITTED] T7680.003

[GRAPHIC] [TIFF OMITTED] T7680.004

[GRAPHIC] [TIFF OMITTED] T7680.005

ADDITIONAL SUBCOMMITTEE QUESTIONS DIRECTED TO DIRECTOR CLARKE DURING 2/
                               14 HEARING
1) Rep. Gibbons:
    ``...I guess my first question would be just a generalized question 
if you could help me out and better understand how much of the United 
States' energy needs are met by fossil fuel versus renewable fuels 
today, in a percentage basis?''
    The Department of Energy's Energy Information Administration (EIA) 
maintains the statistics for energy production and consumption within 
the United States. According to EIA's Monthly Energy Review from 
January 2002 (Table 1.4; Energy Consumption by Source), for the Year 
2000, total fossil fuel consumption is 84.113 Quadrillion Btu (QBtu), 
or 85 percent of the total; and total renewable energy consumption is 
6.9 Qbtu or 6 percent of total consumption.
    The following is a detailed commodity list from EIA of consumption 
by source for the Year 2000:
    <bullet> LCoal - 22.4QBtu (22.7%);
    <bullet> LNatural Gas - 23.1 QBtu (23.4%);
    <bullet> LPetroleum - 38.4 QBtu (38.9%);
    <bullet> LNuclear Power - 8 QBtu (8% );
    <bullet> LHydroelectric Power - 3.15 QBtu (3.2%);
    <bullet> LBiomass (wood, waste, alcohol) - 3.3 QBtu (3.3 %);
    <bullet> LGeothermal - 0.32 QBtu (<1%); and
    <bullet> LSolar, and Wind - 0.12 QBtu (<I%).

2) Rep. Inslee:
    ``...So, from what you have seen to date and looking at the budget 
that we are looking at, does the Federal Department of Interior's 
efforts in those directions as far as vehicle efficiency, building 
energy use efficiency, use of alternative fuels, does the Federal 
Department of Interior match the State of Utah's Department of Natural 
Resources that you have just described?''
    Within the Federal government, the Department has played a 
significant role in demonstrating the application and viability of 
renewable energy-related technologies. Solar-powered photovoltaic (PV) 
systems are successfully operating at National Parks and Refuges, 
Bureau of Land Management, Bureau of Reclamation, Geological Survey 
facilities, and Native American Schools. PV systems are used for 
facility power, lighting, water pumping and heating, electric fences 
and resource monitoring, particularly at remote off-grid locations and 
have become cost-effective power sources. Currently, bureau facilities 
use approximately 600 PV systems and 40 solar hot water systems to 
provide an off-grid power supply. These systems generate about 1,000 
megawatt hours of electricity annually (enough for about 90 houses). 
Geothermal projects have also been successfully employed or are planned 
at several National parks and refuges nationwide and native Americans 
schools.
    In planning for renewable energy systems for their facilities, 
managers consider the amount of energy generated, cost, environmental 
impact, and technical feasibility. The Department requires its 
engineers to implement the use of low-risk, passive solar strategies, 
as appropriate, in the design of new buildings.
    Our facility managers nationwide continue to look for 
opportunities, seeking support through partnerships with the Department 
of Energy (DOE), State and regional governments, industry, utilities 
and other non-governmental organizations, to apply innovative and 
unique renewable energy technologies in meeting facility energy 
management needs. An example of innovative partnerships is the Green 
Energy Parks Program, in which Interior's partnering with DOE has 
resulted in the implementation of and plans for PV and other solar 
energy projects in several national parks. Interior continues to work 
with DOE Energy Laboratories such as the National Renewable Energy 
Laboratory (NREL), Sandia National Laboratory and Lawrence Berkeley 
National Laboratory to identify opportunities to use solar energy 
generating technologies at facilities nationwide and on Native American 
lands.
    The Department has also been a successful contributor to the 
Federal government's effort to acquire and use new energy efficient and 
environmentally sound transportation technologies through cost-sharing 
public/private partnerships. Currently, Interior has 1,200 vehicles in 
the fleet that can be powered by natural gas, LPG, ethanol, methanol, 
bio-diesel and electricity. Use of cleaner burning motor vehicles is 
important in Interior's effort to be good stewards of the nation's 
publicly owned lands and resources. Interior has extensive experience 
with the use and application of alternative fueled vehicles (AFV) 
dating back to the 1970's.
    The Department continues to work and partner with the Department of 
Energy, Department of Transportation, General Services Administration, 
State and local governments, industry, manufacturers, and others to 
help expand the use of AFVs and the availability of fueling and 
servicing infra-structure. Interior has established a significant 
number of high profile AFV initiatives that demonstrate our commitment 
to the use of AFVs in light duty vehicles, as well as transit vehicles 
and medium and heavy duty vehicles.
    In a broader endeavor, the Department has sought to use 
environmentally preferable practices and products in conducting 
mission-related activities. In response to Executive Order 13101, the 
Department developed the Strategic Plan for Greening the Department of 
the Interior Through Waste Prevention, Recycling and Federal 
Acquisition. One of the identified objectives of this Strategic Plan is 
to reduce energy use and greenhouse gas emissions associated with 
Interior operations. The Plan outlines goals and strategies to be 
pursued by DOI facilities to reduce the generation of waste, to recycle 
resources, and to incorporate environmental considerations into 
acquisition actions. Sustainable design and construction principles 
guide DOI facility managers to not only consider the energy efficiency 
of the building envelope, but also to consider the energy embodied in 
the construction products selected. That is, the associated energy used 
in all of the product's lifecycle phases, from manufacture, 
distribution, use, through disposal. Sustainable or environmentally 
preferable products and services, including those which have less 
associated consumed energy and greenhouse gas emissions, are to be 
given preference by DOI facility managers.
    Interior's use of compostable food serviceware in the Main Interior 
Building's cafeteria, composed of biobased starches instead of 
petroleum hydrocarbons, is another example of an environmentally 
preferable product. Greenhouse gas emissions associated with the 
manufacture of these plates are lower by approximately 50% (including 
30% less energy use) than a conventional equivalent foam polystyrene 
plate. Working in conjunction with the Departments of Agriculture and 
Energy, Interior is seeking to pilot test more biobased products that 
have the potential to reduce our reliance on foreign oil while 
promoting the development and use of renewable domestic resources. 
Interior's Annual Performance Plan submitted to Congress this year 
identifies specifically the use of biobased lubricating and hydraulic 
oils as a goal to be pursued at all DOI facilities. Using biolubricants 
in small equipment engines (such as marine engines, lawn mowers, 
snowmobiles, etc.) has the additional benefit of reducing the emissions 
associated with petroleum combustion.
    Energy use and greenhouse gas emissions are two environmental 
aspects that should be considered in the analysis of a facility's 
environmental performance. Interior is now framing its approach to 
promoting the development of environmental management systems.

3) Rep. Inslee:
    ``...Does the Department anticipate setting any internal limits for 
itself on global climate change gas emissions from its lands? For 
instance, do you anticipate saying we are going to only have this 
amount of emissions associated with energy production on our lands and 
set a goal for nonclimate change emission standards? Is that in your 
game plan at all?
    The Department manages its lands for a multiplicity of purposes and 
uses, including conservation of habitat and species, maintenance of 
ecosystem health, public recreation, meeting the nation's Indian trust 
responsibilities, agricultural leasing, logging as well as the 
extraction and development of mineral and renewable and nonrenewable 
energy resources. All of these activities can positively or negatively 
affect greenhouse gas (GHG) emissions. Activities such as 
reforestation, coal bed methane capture, and clean power production 
(hydroelectric, geothermal, and wind) reduce GHG emissions. Other 
activities, such as oil, gas, and coal extraction add to our GHG 
emissions. Still other activities such as wetlands conservation have a 
more complicated contribution to GHG emissions, serving as a carbon 
sink but also promoting anaerobic activities and the release of methane 
gas. Carbon sequestration in soil is equally if not more complicated. 
These emissions vary significantly depending on: the type, depth, and 
composition of soil; the type of activity being undertaken and thus the 
nature of the disturbance; the frequency of the disturbance; the age 
distribution of the vegetation on the land; and so on.
    The Department feels quantifying the impact of all of these 
activities on emissions is not practical and may not be possible given 
the current limitations of the science. As the administration improves 
the voluntary emissions reduction registry, including the development 
of accounting rules and guidelines,for crediting sequestration 
projects, we may examine whether keeping track of the changes in the 
quantity of GHG emissions on the Department's lands would be practical.
                                 ______
                                 

    The Department of Agriculture's response to questions 
submitted for the record follows:]

 Responses to Questions Submitted for the Record to Dale N. Bosworth, 
         Chief, Forest Service, U.S. Department of Agriculture

                 Questions from Chairman Barbara Cubin
    1. When doing land planning, what attempt is made to identify areas 
that are favorable for minerals, oil and gas, geothermal energy, etc? 
During the scoping process do you consult with your own geologists, 
other federal agencies like the U.S. Geological Survey, state 
geological surveys, and industry to identify mineral and energy 
resource rich areas so that they can be considered in the planning 
process as a ``reasonably foreseeable development''? If not, why?
    Answer - During land management planning geologic maps and 
descriptions are reviewed and interpreted. Favorable areas for mineral 
occurrence are described, and areas of existing and potential activity 
identified. This is done using the best information available 
regardless of source. Reasonably foreseeable scenarios are not 
generally identified during the planning process because the nature and 
scale of activities that might occur are unknown.

    2. At a hearing on geothermal energy, witnesses testified that the 
Forest Service has never acted on lease applications for thousands of 
acres in northern California and the Pacific Northwest. Many of these 
applications were in known geothermal areas. What is the problem, and 
does the Forest Service fiscal year 2003 budget request include money 
to remedy this situation?
    Answer - With respect to the lease applications in northern 
California, we had determined that further environmental analyses was 
necessary, and funding has not been available given other priorities 
within the Region. Subject to receiving the increased funding for 
energy requested in the President's Budget for fiscal year 2003 the 
analyses will be undertaken. However, given the environmental settings 
it is likely that the analyses will be multi-year and controversial. 
With respect to the Pacific Northwest applications, all are in spotted 
owl habitat. Before undertaking the environmental analyses for those 
applications we would first verify that the applicants wish us to 
proceed. We would then undertake what would likely be multi-year 
analyses in fiscal year 2003, subject to receiving the increase 
requested in the President's Budget.

    3. Regarding mineral and geothermal energy lease applications, what 
kind of coordination is there at the district level between the Forest 
Service and BLM? Is there any sort of formal procedure for handling the 
application once it is received from BLM and acting on the application 
in a timely manner?
    Answer - Yes, we have a formal Memorandum of Understanding with the 
BLM to facilitate processing of lease applications.

    4. We have received numerous complaints over the past year that the 
Forest Service usually takes even longer than BLM to process oil and 
gas drilling permits. What are the reasons for this and how can you 
reduce the processing time to 30 days or less.
    Answer - In general applications for drilling permits on NFS lands 
involve more controversy, which compels us to do additional 
environmental analyses and public disclosure. However, as part of our 
Action Plan to implement the National Energy Policy we are currently 
reviewing all aspects of oil and gas drilling permits with the BLM to 
determine ways to streamline processing.

    5. What is the status of the roadless area initiative?
    Answer - The U.S. District Court of Idaho has enjoined us from 
implementing the Roadless Area Conservation rule. That decision is 
currently under appeal to the Ninth Circuit Court of Appeals. In total, 
nine lawsuits have been filed in six judicial districts and four 
circuits. Five of the lawsuits were filed by states (Alaska, Idaho, 
North Dakota, Utah, and Wyoming). Two other states (Colorado and 
Montana) have submitted filings in the Idaho litigation.

    6. We understand that there are cases where operating mines are 
bypassing coal due to the Roadless Rule. Since coal bypassed in a 
mining operation is very rarely recovered later, this would cause a 
significant loss in federal royalties. Is this the case? If so, 
shouldn't this situation be corrected so that federal revenue is 
protected?
    Answer - We are not aware of any coal that has been bypassed. 
However, if the rule were to be implemented without modification there 
would be substantial amounts of coal, and oil, gas, phosphate, and 
other minerals that would not be developed.

    7. During the rulemaking for the roadless rule, did the Forest 
Service make any estimate of the lost federal royalty on minerals, coal 
and oil and gas resources included within roadless areas? If so, what 
is the estimate of the lost royalties? What is the state share of these 
lost royalties itemized by state? If not, why wasn't an analysis of 
state shares of lost royalty revenue made as part of the rule's impact 
in compliance with Executive Order 12866, especially subparts (6), (9) 
and (11).
    Answer - There were no estimates made of lost federal royalties. 
However, to the extent that resources were classified as known 
reserves, certain estimates of total values were included in the 
Regulatory Impact Analysis. The Regulatory Impact Analysis also 
estimated that there were 11.3 trillion cubic feet of undiscovered 
natural gas and 550 million barrels of undiscovered petroleum that was 
potentially underlying inventoried roadless areas. The value of the 
natural gas resources was estimated at $23 - $34 billion. Eighty-three 
percent of the resources fall within nine ``play'' areas (as defined by 
USGS) within the Colorado Plateau/Basin and Range and Rocky Mountain/
Northern Great Plains. Since these were estimated undiscovered 
resources, lost royalties were not estimated. Estimates of the portion 
of federal royalties that would be distributed to States were made for 
selected states and commodities. With respect to coal in the Grand 
Mesa, Uncompahgre, and Gunnison National Forest, the reduction in 
payments to Colorado (and counties) was estimated at $2.1 million per 
year. With respect to phosphate in the Caribou National Forest, the 
reduction in payments to Idaho was estimated at $1.3 million per year. 
We believe the Regulatory Impact Analysis to be in compliance with E.O. 
12866.

    8. What is the current status of prospecting for lead exploration 
in southeast Missouri?
    Answer - A Decision Notice was signed by the Supervisor of the Mark 
Twain NF (which produces over 60 percent of the nation's lead) on 
February 14, 2002. The Decision Notice recommended the Regional 
Forester consent to BLM issuing seven prospecting permits that could 
result in drilling of 231 exploration holes over a two-year period on 
8,756 acres. Given the controversy associated with these prospecting 
permits it is likely the decision will be appealed.

    9. Regarding the $5 million increase for implementing the National 
Energy Policy in the President's fiscal year 2003 budget, can you be 
more specific as to what the Forest Service plans to use this money 
for?
    Answer - Priority will be given to facilitating the orderly 
development of coal bed methane (CBM). Environmental analyses of CBM 
development, particularly with respect to surface and ground water, 
will require extensive coordination between Forests, Regions, BLM, and 
other federal and State agencies. Trillions of cubic feet of gas are at 
stake. We have already received hundreds of applications to drill wells 
and construct facilities for CBM development. About 60 percent of the 
increased funding in fiscal year 2003 will go toward CBM development. 
Approximately $500,000 will be used to expedite geothermal leasing in 
California and the Pacific Northwest, and the remainder will be used to 
ensure timely processing and proper inspection and monitoring of 
additional energy operations nationwide, including operations involving 
private minerals within NFS lands.

    10. EPCA 604 inventory has been fast tracked, with reports on the 
five major Rocky Mountain basins that produce oil and gas to be 
completed this spring. How will the results of this study be used by 
the USFS?
    Answer - The results will be used to determine whether changes are 
needed to existing Forest Plans and policy in light of the National 
Energy Policy.

    11. In your statement, Mr. Thompson, you suggest that the $5 
million increase to the energy and mineral program will be used to 
increase the number of coal bed methane (CBM) projects on National 
Forest Service (NFS) lands in the Rocky Mountain States. For NFS land 
with reserved and outstanding mineral rights underlying the surface, 
can a mineral owner simply begin drilling without the Forest Service's 
permission?
    Answer - No. In the case of ``reserved'' mineral rights we process 
the proposed development in accordance with the Secretarial Orders that 
were made part of the deed reserving the mineral rights to the private 
owner. A NEPA analysis is done and mitigation measures providing 
appropriate protection for Forest uses and users are required. In the 
case of ``outstanding'' mineral rights we review the proposed activity, 
and negotiate appropriation mitigation measures with the private owner. 
The activity does not require approval from the Forest Service; 
however, the operator must still comply with the Endangered Species 
Act, the National Historical Preservation Act, and other relevant 
federal and State statutes.

    12. Describe the process the Forest Service requires of mineral 
owners who want to develop coal bed methane affecting the National 
Forest System lands.
    Answer - Basically we require sufficient information to understand 
the proposed activity. This information is either required as part of 
the requirements under a Secretarial Order made part of deeds conveying 
reserved rights, or are required under the various ``reasonable 
accommodation'' statutes of the States that define the relationship 
between a surface owner/administrator and a minerals developer. The 
Forest Service then proceeds as described above in answer to question 
11.

    13. Is this process different from what happens on lands where the 
Forest Service has fee-simple title to both the surface and subsurface 
estates?
    Answer - The process is very similar even though the authorities 
stem from very different sources, e.g., regulations, deeds and 
Secretarial Orders, and State laws. One important difference involves 
appeals. Because there is no decision being made when outstanding 
mineral rights are involved, there is no instrument for the public to 
appeal.

    14. Of the overall increase in your budget for energy and minerals, 
how much will be allocated to the enforcement of existing stipulations 
and environmental standards for oil and gas wells on National Forests?
    Answer - Very little of the increase is needed to improve current 
enforcement for existing wells. Other than short-term situations that 
will always arise, we have not had much problem in this regard on oil 
and gas leases. In large part this is due to the excellent cooperation 
from lessees and operators.

    15. How much of the overall budget is needed to clean up idle and 
orphan wells on the National Forests that have been left unclaimed?
    Answer - None. The few orphaned wells on NFS lands are mostly in 
the East and involve reserved or outstanding mineral rights. We do not 
have much information on the number of these wells or the costs to 
reclaim. We have in the past relied upon the assistance and cooperation 
of BLM (with authority and expertise for down-hole problems), State 
agencies, and EPA for funding and assistance.

    16. Since coal bed methane is considered a non-conventional fuel, 
how does the Forest Service treat the analysis of coal bed methane 
development impacts differently from conventional fuel sources?
    Answer - Actually, CBM development is very similar to traditional 
oil and gas development except as to scale and the unique issues 
related to de-watering. The reservoirs (coal) are generally widespread, 
requiring a large number of shallow wells over very large geographic 
areas. The large number of wells itself raises issues, particularly 
involving wildlife. But the bigger issue is the large quantities of 
water associated with the occurrence of methane gas in coal beds. This 
water must be produced in order to recover the methane. Although the 
quality, quantity, and disposal methods vary from basin to basin, 
regardless of the characteristics of water production, it will be a 
major issue associated with all CBM projects. Also, large CBM projects 
will necessarily require certain specialists and expertise to be 
available to perform adequate and timely environmental analysis and to 
oversee and monitor operations once they are in place. Funding and 
staffing of these have not been able to keep pace with project 
proposals. The increase for energy in the President's Budget for fiscal 
year 2003 will go far in correcting this situation.

    17. What steps are BLM and the Forest Service taking to assure that 
oil and gas and coal operations on public and forest lands are secure 
from terrorist attacks?
    Answer - We are not taking or requiring any special measures be 
taken at this time. Lessees and operators are responsible for security 
of their operations, and for protecting public health and safety.

    18. The Wayne National Forest (WNF) has acquired land over the 
years, in which the sellers reserved their mineral rights for extended 
periods and continue to receive royalties in accordance with private 
lease agreements with the producers. When their reservations expire, 
the oil and gas producers must work with BLM to convert to federal 
leases, with stipulations imposed by the surface management agency, in 
this instance, the WNF. Will you explain why the WNF has left those oil 
and gas producers in a regulatory and legal limbo regarding their 
production operations and additional development by their failure to 
review and apply reasonable surface occupancy stipulations in a timely 
manner.
    Answer - The Wayne National Forest experienced a period of time 
during which qualified personnel were not available to perform this 
particular type of technical adjudication. People have been hired and 
trained, and are working with BLM to process these reversionary 
interests.

    19. It is our understanding that the Los Padres Oil and Gas Leasing 
Analysis and Draft Environmental Impact Statement was released to the 
public in December 2001. The Forest Plan direction (preferred 
alternative) would result in over 75 percent or 70 million barrels of 
oil being off limits. What is the rational that the total disturbance 
of 120 acres would preclude access to that 70 million barrels of oil, 
especially considering that those lands do not qualify for wilderness, 
wild and scenic, or roadless designations?
    Answer - In fact, the preferred alternative is somewhat more 
restrictive than the Forest Plan alternative. It includes restrictions 
needed to make leasing consistent with the Plan, plus additional 
stipulations to further protect biological resources. The combined 
restrictions are necessary to ensure protection of wildlife, scenic, 
recreational, and watershed resources.

    20. In regards to minerals materials program:
        a. To what extent are mineral companies paying for NEPA?
        b. Are there any situations that smaller operations, in 
        particular stone quarries, are not being developed because the 
        proponents can't afford the NEPA costs?
        c. Is there a demand for new quarry sites, and if so, are you 
        turning operators away?
        d. Please provide a region by region summary of any problems or 
        concerns relative to making mineral materials available?
    Answer - For the most part, we are paying for NEPA and related 
environmental review costs. Exceptions occur for very large operations 
in which case operators will volunteer to pay some or all of the costs 
rather than waiting for us to do the work as funding becomes available. 
There are certainly instances when small operators can neither afford 
to pay or wait. Concerning a demand not being met, that is a frequent 
problem. With respect to sand and gravel, the primarily reason is 
environmental issues related to riparian, watershed, aquatic, or 
wildlife values. In the case of new quarries, there are also 
environmental issues, but the problem seems to be more one of funding. 
In general, the mineral materials component of the program has 
difficulty competing for funds against higher priority components of 
the minerals program, which itself has to compete with other agency 
priorities. These concerns - environmental issues and funding - are 
common to all Regions.

    21. The decision in the Finger Lakes EIS is to not allow oil and 
gas leasing because the Nation doesn't need oil and gas now, but would 
lease at some future time if needed. Don't you think that the resources 
are needed now and will the Forest Service be revisiting this decision, 
if so when, if not why?
    Answer - In fact, the decision to not allow leasing was only 
indirectly tied to the availability of oil and gas. As explained in the 
Record of Decision (ROD), the decision was made ``by considering the 
land's capability, legal requirements, public opinion and politics.'' 
However, it was perceptions about the value of ``place'' involving 
social values, and human needs and desires, and how they would be 
affected by oil and gas development that was the deciding factor. As 
stated in the ROD, ``The selection of Alternative 4 (No Action 
Alternative) is based entirely on public input, comments made on the 
DEIS, and is not based on environmental effects.
    The FEIS shows that the environmental effects of oil and gas 
leasing on the Finger Lakes National Forest would be minimal especially 
when various measures are taken to mitigate potential environmental 
harm.'' The ROD further explains that the No Action Alternative is not 
even best in terms of environmental effects. The Environmentally 
Preferred Alternative, that is, the alternative with the least amount 
of human-caused change to the biological and physical environment, 
would actually allow all of the Forest to be leased and 34 percent of 
the surface to be available for operations.
    In effect, the no leasing Alternative will result in more 
environmental disturbance but is favored by the public because it will 
maintain the ``special feeling'' of the Forest. According to the 
Supervisor's Statement to the Press of December 19, 2001, the question 
of leasing will not be taken up again (except during revision of the 
Finger Lakes National Forest Plan) unless substantive new information 
becomes available which would include ``a change in public attitude 
toward the need to access the natural gas under the Finger Lakes 
National forest. This may be in the form of a domestic energy crisis or 
other unforeseen event.''

                                   - 

</pre></body></html>
